<html>
<title> - THE NATIONAL ENDOWMENT FOR THE HUMANITIES AND THE NATIONAL ENDOWMENT FOR THE ARTS: OVERVIEW OF PROGRAMS AND NATIONAL IMPACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE NATIONAL ENDOWMENT FOR THE 
                      HUMANITIES AND THE NATIONAL 
                    ENDOWMENT FOR THE ARTS: OVERVIEW 
                    OF PROGRAMS AND NATIONAL IMPACT 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 8, 2008

                               __________

                           Serial No. 110-91

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

41-983 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     [Vacancy]





































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 8, 2008......................................     1
Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
        Prepared statement of....................................     2
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor.....................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Burns, Ken, filmmaker........................................     4
        Prepared statement of....................................     6
    Cole, Bruce, chairman, National Endowment for the Humanities.    13
        Prepared statement of....................................    14
    Gioia, Dan, chairman, National Endowment for the Arts........    20
        Prepared statement of....................................    22
    Glacken, Hon. William F. Mayor, Freeport, NY.................    27
        Prepared statement of....................................    28
    Kelly, Ryan, Captain, U.S. Army, retired.....................    35
        Prepared statement of....................................    36
    Schmedlen, Jeanne H., board member and former chair, 
      Pennsylvania Humanities Council; former speaker's 
      representative, Pennsylvania Council on the Arts...........    29
        Prepared statement of....................................    31
    Watkins, Katrine, librarian, Shaler Area Intermediate School.    33
        Prepared statement of....................................    34


                     THE NATIONAL ENDOWMENT FOR THE
                      HUMANITIES AND THE NATIONAL
                    ENDOWMENT FOR THE ARTS: OVERVIEW
                    OF PROGRAMS AND NATIONAL IMPACT

                              ----------                              


                         Thursday, May 8, 2008

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Shea-Porter, Kucinich, 
Sarbanes, Platts, and McKeon.
    Staff present: Tylease Alli, Hearing Clerk; Adrienne 
Dunbar, Education Policy Advisor; Lloyd Horwich, Policy Advisor 
for Subcommittee on Early Childhood, Elementary and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Deborah 
Koolbeck, Policy Advisor for Subcommittee on Healthy Families 
and Communities; Margaret Young, Staff Assistant, Education; 
Stephanie Arras, Minority Legislative Assistant; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Cameron Coursen, Minority Assistant 
Communications Director; Chad Miller, Minority Professional 
Staff; Susan Ross, Minority Director of Education and Human 
Resources Policy; and Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. Calling the hearing to 
order. A quorum is present. The hearing of the subcommittee 
will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    Before we begin, I would like everyone to take a moment to 
ensure your cell phones and BlackBerrys are off, members 
included.
    I now recognize myself, followed by the ranking members, 
Mr. Platts from Pennsylvania, for an opening statement.
    To be very honest with you, Mr. Platts and I have already 
decided that we are going to change this around a little bit. 
We will both introduce our opening statements for the record. A 
number of our witnesses are on time constraints. We are 
scheduled to have votes around 10:15, 10:20. So to try to get 
this thing moving and try to get all the testimony in so there 
is not a delay for a lot of people, we are going to really just 
go straight into the testimony.
    Mr. Platts?
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    As you all know, if you attend my hearings, I often speak of how 
much I like this subcommittee because we handle a lot of issues which 
directly impact people's lives.The hearings we hold and give us the 
opportunity to improve people's lives and the community in which they 
live. That's why it seems so appropriate to me that the Subcommittee 
has the National Endowment for the Humanities and the National 
Endowment for the Arts under our jurisdiction.
    The arts and humanities directly impact the lives of each citizen 
in this nation and the arts and humanities have the potential to 
improve communities across this nation. During my time in Congress I 
have become increasingly familiar and impressed with the work of both 
the NEA and the NEH.
    The history of these agencies is not without its questions or 
concerns. In the late 1980's and early 1990's the NEA, and with it NEH, 
suffered from controversy. In the mid-1990's, perhaps in response to 
other grant controversies and other concerns, Congress cut the budgets 
of both agencies by approximately one third and reforms were enacted. 
Since the mid-1990's the agencies have seen less controversy. This is, 
in part, due to the fact that the leadership of both agencies has led 
them forward. Sensible reforms have also been made.
    There is no way that we could possibly explore all of the 
remarkable programs that both of these agencies are engaged in during 
the course of this hearing.
    In recent years, the NEA has set a goal to have at least one grant 
recipient in every Congressional district in order to increase access 
to the arts for each citizen. The NEH has been working on the Digital 
Humanities Initiative which is aimed at fostering the growth of 
programs that incorporate digital technologies. As we are living in the 
digital age, the humanities and the arts are carrying us forward.
    The endowments and their missions have evolved over time, and I am 
happy to help spread the word about these programs and their impact. 
Today we are going to hear from the heads of both agencies, as well as 
from grantees of each agency. We will hear about their experiences 
working with the two agencies.
    Both the NEA and NEH are involved in more programs than would seem 
obvious to the casual observer. For example, I recently learned that 
the NEA was involved in the Mayors' Institute for City Design. This 
program connects mayors with architects and designers to tackle local 
challenges and help Mayors transform communities through good planning 
and design. Mayor William Glacken from the Village of Freeport, NY, in 
my district, attended this institute and we will hear from him today.
    Research shows that experiences with the arts and humanities 
improve students' creative problem-solving and innovative thinking 
skills and can strengthen the mental agility in our older population. 
Experts say this sort of thinking process may help ward off mental 
diseases such as Alzheimer's.The arts and the humanities ground us, 
inspire us, and challenge us to grow and expand. Both are truly part of 
the human condition and have a major impact on people's lives, in our 
nation's communities and around the world.
    I look forward to today's testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair. I am glad to submit my 
statement for the record. And thank you for holding this 
important oversight hearing.
    And just want to, most importantly, thank all of our 
participants on the panel for your dedication to telling the 
story of the importance of the arts and the humanities and the 
impact it has on our nation's citizens and, I will say 
especially as a parent of a 3rd-grader and 5th-grader, on our 
youth and the lasting impact it has on them.
    So, appreciate. We will get right to your testimonies. And 
thank each of you for being here.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good morning and welcome. I would like to first thank Chairwoman 
McCarthy for holding this hearing to learn more about the National 
Endowment for the Arts and the National Endowment for the Humanities. I 
would also like to thank all of the panelists for joining us today and 
providing some insight as to how the arts and humanities are used to 
educate children across America.
    I have seen first-hand the benefits of NEA and NEH local grants in 
my District, including a living museum program interpreting the 
Underground Railroad, several ballet and symphony performances, and a 
symposium on the events at Little Round Top during the Civil War battle 
at Gettysburg. In addition, their national projects, such as The Big 
Read, Shakespeare in American Communities, and We the People, have 
positively impacted students in my District and across the country.
    As a member of both the Congressional Arts Caucus and the 
Congressional Humanities Caucus, I strongly believe that exposing 
children to the arts and humanities can spur their interest in various 
subjects, as well as afford students with well-rounded educations. The 
NEA and NEH stimulate children by allowing them to learn through 
paintings, photographs, poetry, plays, and other interactive 
activities.
    I look forward to learning more about how the Endowments not only 
engage teachers and schools, but educate teachers about effective ways 
to teach the arts and humanities to their students. In addition, I am 
interested to hear about the various state initiatives and how states 
respond to the different educational needs of students in diverse 
geographical and economic settings.
    Again, I thank all of the witnesses for joining us and look forward 
to their testimony. With that, I yield back.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    Let me explain quickly the lighting system. In front of 
you, you will see that little box. It is green, yellow and red. 
When your testimony starts, it will start on green. Yellow 
means start to wind up your testimony. And red means, you know, 
we will let you finish your sentence, but then go forward with 
that.
    Today we will hear from a panel of witnesses. Your 
testimonies will proceed in the order of your introduction. I 
am going to be brief with the introductions, given that we have 
such a large panel for this hearing.
    Our first witness is Mr. Ken Burns. I yield to the 
distinguished Congresswoman from New Hampshire, Ms. Shea-
Porter, to introduce him.
    Ms. Shea-Porter. Thank you, Chairwoman.
    I am pleased to have the opportunity today to introduce a 
resident of my home state of New Hampshire, Ken Burns. Probably 
you really don't need this introduction if you have ever 
watched television or a documentary.
    Ken Burns has built quite the impressive resume through 
over 30 years of work as a documentary filmmaker. The topics of 
his documentaries range from Thomas Jefferson, my personal 
hero, to the Civil War to World War II and even a history of 
the Congress. Of course, these are just a few.
    The honors and awards that have been bestowed upon Ken's 
work include two Oscar nominations, the Peabody Award, and 
seven Emmy awards. And my staff member pointed out that that is 
seven more than I have ever received. The full list of his 
awards is certainly much longer than this, but I think, based 
on these examples, we can all get a sense of how truly 
accomplished Ken really is.
    And I would like to add, Ken, that you were the one who 
managed to get every generation of my family sitting together, 
interested in the same show at the same time. So I thank you 
for that.
    So, in the interest of keeping this very brief, I will just 
conclude by welcoming you, thank you for coming, and saying how 
happy I am to see you here today testifying on such an 
important issue.
    Thank you, and I yield back.
    Chairwoman McCarthy. I thank you, Ms. Shea-Porter.
    Again, we are going to be a little unorthodox. Again, Mr. 
Burns has to leave here by 10:55, and we are going to have 
votes.
    So, Mr. Burns, if you would give your 5 minutes of 
testimony, and then we will follow through. Thank you.

               STATEMENT OF KEN BURNS, FILMMAKER

    Mr. Burns. Good morning. Thank you, Madam Chairwoman and 
distinguished members of the subcommittee, Ms. Shea-Porter, 
thank you. It is an honor for me to appear before you today, 
and I am grateful that you have given me this opportunity to 
express my thoughts on the programs of the National Endowment 
for the Arts and the National Endowment for the Humanities.
    Let me begin by saying that I am a passionate supporter of 
the Endowments and their unique role in fostering creativity 
and scholarship and the transmission of the best of our diverse 
culture to future generations. In my view, anything that 
threatens the Endowments weakens our country. While they have 
nothing to do with the actual defense of our nation, I know 
that, they just help to make our country worth defending.
    Few institutions provide such a direct, grassroots way for 
our citizens to participate in the shared glories of their 
common past, in the power of the priceless ideals that have 
animated our remarkable republic and our national life for more 
than 200 years and in the inspirational life of the mind and 
the heart than an engagement with the arts and humanities 
always provides.
    For all of my life, I have been a student of our nation's 
diverse, fascinating history and rich cultural legacy. I have 
been foremost a filmmaker, but I also think of myself as an 
amateur historian--``amateur'' in the classic 19th-century 
sense. That is, one who engages in the study of a subject out 
of a deep and abiding love and a desire to share that knowledge 
with as many of his fellow citizens as possible.
    And for more than 30 years, I have been producing 
historical documentary films that shed light on facets of that 
subject that I love so dearly. These films range from the 
construction of the Brooklyn Bridge and the Statue of Liberty 
to the turbulent life of the Southern demagogue Huey Long; from 
the serene simplicity of Shaker architecture to the jubilation 
and spontaneity of jazz; from the sublime pleasures and 
unexpected lessons of our national pastime to the terrible 
watershed experiences of our civil war and World War II.
    Over this time, I have been able to realize my dream of 
sharing the American experience, what I have found so 
compelling and enduring about our epic American story.
    Throughout my professional life, I have been fortunate to 
work closely with both the National Endowment for the 
Humanities and the National Endowment for the Arts. Nearly all 
of my films have been produced with the support and 
encouragement of the National Endowment for the Humanities, 
either at the state or national level. On other occasions, I 
have enjoyed support from the National Endowment for the Arts.
    I first received an NEH grant in 1979, as I embarked on my 
first project for public television, a film about the 
construction of the Brooklyn Bridge. The application process 
was not unlike the building of that bridge: complex, demanding 
and time-consuming. [Laughter.]
    But at this very early stage of my development as a 
filmmaker, the experience of competing successfully for an NEH 
grant helped me set high standards of excellence in filmmaking, 
writing, scholarship, even budgeting. Throughout, we were 
encouraged and challenged to maintain and strengthen our 
commitment to the inclusion of all communities who have 
contributed to this great nation.
    Over the years, I would apply many times to NEH for support 
on a variety of projects. Working with NEH staff and humanities 
scholars ensured that my projects stayed true to rigorous 
intellectual standards and reached a broad, receptive, national 
audience of Americans.
    This interaction has been a powerful influence on my own 
work, even when my applications have not been successful. On 
the few occasions in my professional life when I did not enjoy 
Endowment support, I tried, with decidedly mixed results, to 
duplicate the arduous but honorable discipline the NEH imposes 
on every project that comes its way, simply because I thought 
it would make my films better.
    Without a doubt, my work could not, would not, have been 
possible without the Endowments. My series on the Civil War, 
for instance, could not have been made without early and 
substantial support from NEH. The NEH provided one of the 
project's largest grants, thereby attracting a host of other 
funders.
    Many applicants find that grants from NEH or NEA are a kind 
of seal of approval that signify excellence. This coveted 
imprimatur helped me to convince private foundations, 
corporations and other public funders that my films were worthy 
of their support.
    NEH oversight and involvement helped me in every aspect of 
the production. And through unrelated grants to other 
institutions, they helped restore the archival photographs we 
would use to tell our histories. Much of the seminal research 
our scholars provided also came from NEH-supported projects.
    And NEH's interest in our progress ensured at critical 
junctures that we did not stray into myth or hagiography. I am 
extremely grateful for all those things.
    The Endowments were a tremendous help to my work, and their 
recent initiatives continue to provide crucial support where it 
is most needed: in the preservation of Americans' cultural 
legacy.
    I am especially impressed with the work of both Endowments 
in helping teachers bring Shakespeare, jazz and American 
history to life in the classrooms.
    NEA Chairman Dana Gioia and NEH Chairman Bruce Cole have 
each brought new vigor to the missions of their respective 
agencies.
    Chairman Dana Gioia, a poet, has developed popular programs 
that engage hundreds of thousands of high-school students in 
the recitation of poetry and the pleasure and power of great 
language spoken well. The NEA is bringing literature back into 
public discourse through The Big Read, introducing hundreds of 
thousands of students to their first live performances of a 
Shakespeare play and giving our military veterans a voice to 
write their own stories through Operation Homecoming.
    Thank you.
    [The statement of Mr. Burns follows:]

               Prepared Statement of Ken Burns, Filmmaker

    Madame Chairwoman and distinguished members of the Subcommittee: It 
is an honor for me to appear before you today, and I am grateful that 
you have given me this opportunity to express my thoughts on the 
programs of the National Endowment for the Arts and the National 
Endowment for the Humanities. Let me begin by saying that I am a 
passionate supporter of the Endowments and their unique role in 
fostering creativity and scholarship and the transmission of the best 
of our diverse culture to future generations.
    Few institutions provide such a direct, grassroots way for our 
citizens to participate in the shared glories of their common past, in 
the power of the priceless ideals that have animated our remarkable 
republic and our national life for more than two hundred years, and in 
the inspirational life of the mind and the heart that an engagement 
with the arts and humanities always provides.
    For all of my life, I have been a student of our nation's 
fascinating history and rich cultural legacy. I have been foremost a 
filmmaker, but I also think of myself as an amateur historian--
``amateur'' in the classic sense. That is, one who engages in the study 
of a subject out of a deep and abiding love.
    And, for more than 30 years, I have been producing historical 
documentary films that shed light on facets of that subject I love so 
dearly, American history and culture. These films range from the 
construction of Brooklyn Bridge and the Statue of Liberty to the 
turbulent life of the demagogue Huey Long; from the serene simplicity 
of Shaker architecture to the jubilation and spontaneity of jazz; from 
the sublime pleasures and unexpected lessons of our national pastime, 
baseball, to the terrible watershed experiences of the Civil War and 
World War II. Over this time, I have been able to realize my hope of 
sharing what I have found so compelling and enduring about our epic 
American story.
    Throughout my career, I have been fortunate to work closely with 
both the National Endowment for the Humanities and the National 
Endowment for the Arts. Nearly all of my films have been produced with 
the support and encouragement of the National Endowment for the 
Humanities, either at the state or national level. On other occasions, 
I have enjoyed support from the National Endowment for the Arts. I 
first received an NEH grant in 1979, as I embarked on my first project, 
a film about the construction of the Brooklyn Bridge. The application 
process was not unlike the building of that bridge--a complex, 
demanding, and time-consuming process. But, at this very early stage of 
my career, the experience of competing successfully for an NEH grant 
helped me set high standards of excellence * * * in filmmaking, 
writing, scholarship, and even budgeting.
    Over the years, I would apply many times to the NEH for support on 
a variety of projects. Working with NEH staff and humanities scholars 
ensured that my projects stayed true to rigorous intellectual standards 
and reached a broad, receptive audience of Americans. This interaction 
has been a powerful influence on my work, even when my applications 
have not been successful. On the few occasions in my professional life 
when I did not enjoy Endowment support, I tried--with decidedly mixed 
results--to duplicate the arduous but honorable discipline the NEH 
imposes on every project that comes its way, simply because I thought 
it would make my films better.
    Without a doubt, my work would not have been possible without the 
Endowments. My series on the Civil War, for instance, could not have 
been made without early and substantial support from the NEH. The NEH 
provided one of the project's largest grants, thereby attracting a host 
of other funders. Many applicants find that grants from NEH or NEA are 
a kind of ``seal of approval'' that signify excellence. Especially 
early in my career, this coveted imprimatur helped me to convince 
private foundations, corporations, and other public funders that my 
films were worthy of their support. NEH involvement helped me in every 
aspect of the production, and, through unrelated grants to other 
institutions, they helped restore the archival photographs we would use 
to tell our histories. Much of the seminal research our scholars 
provided also came from NEH-supported projects. And NEH's interest in 
our progress ensured at critical junctures that we did not stray into 
myth or hagiography. I am extremely grateful for all those things.
    In a filmed interview several years ago, the writer and essayist 
Gerald Early told us that ``when they study our civilization two 
thousand years from now, there will only be three things that Americans 
will be known for: the Constitution, baseball and jazz music. They're 
the three most beautiful things Americans have ever created.'' His 
wonderful, smile-inducing comment made me realize that my professional 
life in a way has been a series of projects that have tried to honor 
that statement of his. We grappled with many Constitutional issues in 
our Civil War series (the Constitution's greatest test) and in many 
other films, including, I might add, a history of this great 
institution, the Congress; explored our national pastime and its 
exquisite lessons in our series on baseball; and more recently we 
struggled to understand the utterly American art form of jazz.
    In producing all these films we were reminded daily that the true 
genius of America is improvisation, our unique experiment a profound 
intersection of freedom and creativity, for better and for worse, in 
nearly every gesture and breath. We discovered that nowhere is this 
more apparent, of course, than in jazz--the subject of a 2001 
documentary series we made with support from both the NEA and the NEH. 
To me jazz is an enduring and indelible expression of cultural 
diversity and our nation's great genius and promise. Jazz was founded 
by African-Americans, people who have had to improvise even more than 
other Americans. And in that struggle, they were able to create the 
only art form we Americans have ever invented, jazz music, out of 
which, nearly every other musical form that we enjoy today has sprung. 
R& B, soul, rock, hip hop, rap all have their ancestry in jazz music.
    Jazz offers a prism through which so much of American history can 
be seen--it was a curious and unusually objective witness to the 
Twentieth Century. It was the soundtrack that helped Americans get 
through two world wars and a devastating Depression. It is about 
movement and dance, communication between artist and audience, 
suffering and celebration. Most of all, the story of jazz is about race 
and race relations and prejudice. It is an uniquely American paradox 
that our greatest art form was created by those who have had the 
peculiar experience of being unfree in a free land, and during the 
production we began to suspect that African-American history might 
actually be at the heart of American history--not something we should 
separate and segregate into the cold month of February. Jazz musicians, 
Black jazz musicians in particular, carry a complicated message to the 
rest of us, a genetic memory of our great promise and our great 
failing, and the music they created and then generously shared with the 
rest of the world. Fittingly, both Endowments helped preserve and 
transmit this important story by providing major support that made our 
jazz documentary series possible.
    The Endowments were a tremendous help to my work and their recent 
initiatives continue to provide crucial support where it is most 
needed--in the preservation of America's cultural legacy and engagement 
of Americans in their intellectual growth. I am especially impressed 
with the work of both Endowments in helping teachers bring Shakespeare, 
jazz and American history to life in the classroom.
    NEA Chairman Dana Gioia and NEH Chairman Bruce Cole have each 
brought new vigor to the missions of their respective agencies. 
Chairman Dana Gioia, a poet, has developed popular programs that engage 
hundreds of thousands of high school students in the recitation of 
poetry and the pleasure and power of great language spoken well. The 
NEA is bringing literature back into public discourse through The Big 
Read, introducing hundreds of thousands of students to their first live 
performance of a Shakespeare play, and giving our military veterans a 
voice to write their own stories through Operation Homecoming. Their 
Shakespeare and Jazz in the Schools educational toolkits have reached 
thousands of teachers and millions of students.
    NEH Chairman Dr. Bruce Cole, an art historian, has made the study 
and understanding of American history an even greater emphasis at his 
Endowment. Through the We the People program, the NEH has confirmed its 
leadership role in encouraging greater knowledge of American history 
and culture * * * among young people as well as their parents and 
teachers. Through public programming (like my documentary films), 
scholarship, education programs, state humanities councils, 
preservation efforts, challenge grants, and special projects such as 
Picturing America, that provide teachers with iconic American works of 
art as signposts to American history, the Humanities Endowment has 
helped address one of the greatest needs of our time--a deeper and 
richer understanding of our shared past.
    The historian Arthur Schlesinger, Jr. has said that we suffer today 
from ``too much pluribus and not enough unum.'' Few things survive 
today that remind us of the Union from which so many of our personal as 
well as collective blessings flow, and, in work such as my own, we are 
challenged to maintain and strengthen our commitment to inclusion of 
all communities who have contributed to this great nation. And it is 
hard not to wonder, in an age when the present moment consumes and 
overshadows all else--our bright past and our dim unknown future--what 
finally does endure? What exists in America today to encode and store 
the genetic material of our civilization, to inspire our children to 
learn the great stories of history and literature and to master and 
create art? I believe the Arts and Humanities Endowments provide one 
clear answer.
                                 ______
                                 
    Chairwoman McCarthy. I thank you for your testimony.
    Mr. Burns, for 30 years you have been a filmmaker, and 
during that time you have received grants from the NEA and NEH. 
Do you feel those grants from these agencies are critical to 
the continued growth of American arts and culture?
    And I guess I want to bring it down to even another area. 
Like, in my hometown, or in Long Island, we have many young 
people that are interested in getting into the arts. And how 
would you feel, you know, with the funding that hopefully will 
get with the NEH that helps those young students?
    Mr. Burns. It is critical. And it is true in the arts, and 
it is true in the humanities. I come from a very small state--
in many ways, like our country itself. We are stitched together 
by words and, most importantly, their dangerous progeny, ideas.
    And at a grassroots level, the arts and the humanities and 
the programs, sometimes at a local library, sometimes in a 
public television program that attracts tens of millions of 
people, help to stitch the still, sort of, fragile constituency 
that we have together.
    It has been critical over the last 30 years to everything 
that I have done. I can't imagine any of the films that I have 
been known for being made without the rigorously earned 
imprimatur from the Humanities and the Arts.
    Chairwoman McCarthy. I thank you for that.
    And I have to say, you sound like you are from New York. 
You really talk fast. [Laughter.]
    Mr. Burns. I was born in Brooklyn, Madam Chairwoman. That 
says it all, doesn't it? [Laughter.]
    Chairwoman McCarthy. That says it all.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Burns, for your passionate 
message and important one.
    You mentioned the important support of NEA and NEH and 
that, kind of, seal of approval, I think is how you said it, to 
then go to the foundations or corporations.
    Is there a general framework, from a percentage standpoint, 
on a typical project that is NEH money or NEA money, kind of 
the seed money, you know, that just gives you a start, that 
then the return on investment, I guess is how I would say it, 
for the taxpayer is dramatically greater?
    Mr. Burns. I believe in every, sort of, metric or 
calculation that you could apply. Yes, we would normally start 
off a project and submit ourselves to the rigorous, time-
consuming process of preparing a proposal for the Endowments, 
sometimes going to 200 or 300 pages in the case of a large 
series like ``The Civil War'' or ``Baseball'' or ``Jazz.''
    Once that support came in, it not only permitted us to 
further refine scripts, but to go out into a diverse patchwork 
quilt of potential funders in the private sector--private 
foundations, corporations--and seek their support. And that 
money, that seed money, is helpful in every sense of the word.
    And if, which is rare in documentary films, these films 
make money, the program income is returned back to the 
Endowment. I am extremely proud of the fact that the $1,349,500 
grant I received for the Civil War series was paid back in full 
to the Endowments, which allowed them to put it back into other 
public programs.
    And, to me, that is a model of government priming the pump, 
in the sense that President Reagan used to talk about, as a 
partnership between private and public monies.
    Mr. Platts. And that very much--I, kind of, see 
government's role, in many ways, beyond just NEH and NEA, of, 
kind of, that helping individuals to then help themselves or 
advance whatever the cause is.
    Mr. Burns. You are looking at, sort of, evidence of that. I 
don't recognize the person who first knocked on the door of the 
NEH in 1977 and the person I am today. And a lot of it had to 
do with that discipline I hope my testimony at least hinted at. 
And I will be--I mean this from the bottom of my heart--forever 
grateful for that rigorous discipline.
    Mr. Platts. And the rigor of it is something that you 
obviously endorse----
    Mr. Burns. Yes.
    Mr. Platts [continuing]. And the changes that have occurred 
over, say, the last 20 years in what is demanded of applicants 
is something that is a positive and that we are at a right spot 
today, as compared to perhaps maybe early on, and we have kind 
of refined it?
    Mr. Burns. Yes, I think that is true.
    One always wishes there was more funding. I was saying 
before the testimony that my series on the Civil War and 
baseball, the National Endowment for the Humanities' 
contribution was fully a third of our budget. By the time we 
got to ``Jazz,'' the third of our major series, they gave the 
largest grant they could possibly give, but that represented 6 
to 8 percent of our budget.
    But all of us in the documentary community, some of us 
complain about this rigorous process. But I felt early on to 
embrace it put me in contact with humanities scholars.
    I hired William Leuchtenburg, the dean of American 
historians, for my third film on the demagogue Huey Long, and I 
have used Professor Leuchtenburg in almost every film I have 
made since as a, kind of, you know, backstop, make sure we get 
it right, you know?
    As you are telling a dramatic story, you cut corners; it is 
inevitable. And to have a scholar there or the set of scholars 
that we employ reminding us of a higher calling, in essence, I 
think has made my work better, not burdened it with 
bureaucratic apparatus.
    Mr. Platts. Well, my time is about out. I would just say, 
as one who grew up with a great love of history--and being born 
in York, the Articles of Confederation signed there, Gettysburg 
and the heroic efforts of so many Americans on that 
battlefield, and Carlisle and Jim Thorpe, I kind of grew up in 
the middle of history.
    My worry today is how to make sure today's generations and 
the generations to come maintain that interest and, actually, 
hopefully, strengthen it. And works such as yours, in 
partnership with NEA and NEH, certainly are playing a critical 
role in making sure that happens.
    So thank you for your testimony, and thanks for being here 
today.
    Mr. Burns. Thank you, sir.
    Chairwoman McCarthy. Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you.
    I, too, was a transplant from Brooklyn, but I learned to 
speak slower. [Laughter.]
    And my father was born in Brooklyn, and my family is from 
there. And so, watching your documentary on the Brooklyn Bridge 
was very emotional for all of us to see that. So I just wanted 
to thank you for that and all of the other projects.
    What I wanted to ask you about was, I know that you have 
anecdotal evidence about how your documentaries are used in 
schools. But could you expand on that, please? A lot of people 
look at these programs and say, ``Oh, that is nice, but what is 
it really doing for this generation? Are they really 
educating?''
    So could you just tell us what you hear from schools and 
administrators around the country?
    Mr. Burns. Absolutely, and thank you for that opportunity.
    Of course, one of the silent partners here today is our 
magnificent Corporation for Public Broadcasting and PBS itself. 
Most broadcast television is sky-writing: It disappears at the 
first zephyr. And that is what I think you are alluding too.
    The reason why I have stayed my entire professional life in 
public television, despite offers that were more lucrative in 
one calibration of that, is because these films have an 
afterlife.
    We enjoy a tremendous response in schools, and PBS Video 
distributes these. And I am very happy to say that ``The Civil 
War'' is the most watched history video in our school systems 
today. And I have had beyond anecdotal evidence that nearly all 
the other films are engaged.
    Teachers come up to me everywhere I speak and talk about 
the way in which the book, still the greatest mechanical device 
on earth and yet suffering this day in our media culture, how 
they have been able to supplement and interest people by 
bringing them in with the stories that we have been able to 
tell.
    It has just been a fascinating story. I meet with kids all 
the time. I went to the National History Day at the University 
of Maryland, not too far from here, last spring in advance of 
our World War II thing, and I was mobbed like I was a rockstar. 
It was terrifying. [Laughter.]
    And it was kids who had grown up with these films in 
school. And it was interesting to see that they do permit us, I 
think, to bridge that gap between an older generation that is 
still devoted, understandably and delightfully so, to the book 
and the younger generation so distracted by television and 
computers, the Internet and video games, that a visual form of 
communication is sometimes a way to bring them in.
    And I have spent my entire professional career telling 
stories that haven't been told, seeking underserved populations 
and reaching out to them.
    I am finishing a film on the national parks, and one of the 
grants I got from the Haas, Jr. Foundation is deliberately 
specified to go into underserved populations and to reach out 
to them in Spanish-language translation, in reaching into the 
inner cities to show them the films and having programs that 
bring them to our national parks.
    So we have done this in every single film. So just getting 
it out isn't enough. We have other responsibilities.
    Ms. Shea-Porter. Right. And I want to thank you for that.
    I also would like to point out, as you know, that so much 
of what passes for history is really entertainment. And to have 
actually documentaries that provide facts is very valuable 
right now. Because they have crossed the line so many times in 
film lately, that to have actual facts for kids to learn, and 
in an entertaining manner as well, is terrific.
    Thank you.
    Mr. Burns. Thank you.
    Chairwoman McCarthy. I would like to recognize that the 
ranking member on the full committee has joined us to hear the 
testimony, Mr. McKeon from California.
    Mr. Kucinich?
    Mr. Kucinich. First of all, I want to welcome members of 
the panel. And thanks to each of you for your commitment to 
enriching knowledge in this country, to attempting to keep 
American on a more humane path, and to help us, in many cases, 
remember who we are, remember the finest sentiments that inform 
our humanity. I want to thank you.
    I also would like to pick up on a comment that Mr. Burns 
just made.
    When you look at our heavily mediated culture, with its 24-
hour news cycles, cable television with the--you can be getting 
many different messages at once on a screen. You can get a 
crawl and, like, a ticker; you can have somebody telling you 
one thing, the graphics behind them can say another; the 
Internet. There seems to be, kind of, a linearity to our 
communications and a truncation, at the same time, which almost 
informs or entrains us into a shorter attention span.
    Mr. Burns. That is right.
    Mr. Kucinich. Would you agree with that?
    Mr. Burns. I agree completely, sir. And I have worked--as 
you know, the length of my films challenge even the most 
attentive. [Laughter.]
    Mr. Kucinich. People would say, I am sure you have run into 
it, that at times you get into discussions where people would 
say, ``Well, this is just--people aren't interested in this 
kind of stuff. They can't follow it; it is too long.'' Do you 
get that occasionally?
    Mr. Burns. All the time, Mr. Congressman. I remember 
testifying before a similar committee 15 years ago, and the 
great anxiety was about the visual stimulation, the quick-
cutting of MTV, for example. And now it has just gone into this 
multiprocessing, multilayered screen that we see on most every 
channel.
    I think that we begin to understand in the humanities and 
in the arts that all real meaning accrues in duration, that the 
work we are proudest of, the relationships that we care most 
about, have benefited from our sustained attention.
    And yet, we live in an environment in which we are so 
multitasking that we think that, because we are able to do 
that, that we are able to receive them physiologically, that 
meaning has accrued. It does not.
    Mr. Kucinich. Madam Chair, you know, compare this to the 
kind of environment so many of us find ourselves in, where we 
are conducting a conversation where we are on a BlackBerry. 
Okay? All of us understand this. You are on a phone while you 
are driving. We are here in this committee room, and we are 
seeing a screen with votes, you know, counting down. And what 
happens is there then becomes a lack of attention.
    So what I wanted to point out is what many of you already 
know, but it bears repeating, that the kind of work that you 
do, Mr. Burns, with the documentation, literally documentaries, 
has a way of not just holding people to an attention, but also 
helping people to be able to make connections that this heavily 
mediated society with its truncated messages and skipping from 
one topic to another does not often permit.
    So I just wanted to thank you for the commitment that you 
have had, which, I imagine, in some cases, has been long-
suffering, but to see the product of your work has really been 
to experience, in some ways, the miracle of persistence. And so 
we thank you.
    Mr. Burns. Thank you, sir.
    Mr. Kucinich. And I want to thank the chair for her role in 
causing this hearing to come forward.
    Chairwoman McCarthy. Thank you, Mr. Kucinich.
    As you heard, the bells are on. What we are going to do is 
go to Mr. Cole. Mr. Platts will introduce you. And then we are 
going to try and work it out where we can run back and forth 
and get here and get it going.
    Mr. Burns, I thank you so much. In record time, you are out 
of here. [Laughter.]
    Mr. Burns. With your permission, Madam Chairman, I would 
like to stick around for as long as my schedule permits.
    Chairwoman McCarthy. We would love to have you here. Thank 
you.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    And we do appreciate all of our witnesses' understanding of 
the juggling today, with the vote schedule as it is going.
    But I am pleased to introduce Dr. Bruce Cole, chairman of 
the National Endowment for the Humanities. Chairman Cole has 
served as chairman at NEH since 2001, when he was appointed by 
George W. Bush.
    Dr. Cole came to the NEH in December of 2001 from Indiana 
University in Bloomington, where he served as a distinguished 
professor of art history and a professor of comparative 
literature.
    As NEH chairman, Dr. Cole has launched We the People, a 
program to encourage the teaching, study and understanding of 
American history and culture. The program includes summer 
seminars at our nation's historic landmarks to enhance 
teachers' knowledge of American history. In addition, the 
program distributes classic children's books to libraries and 
schools across the country.
    I recently had the pleasure of meeting with Dr. Cole, and 
during this meeting we discussed the newest initiative, 
Picturing America. This program aims to teach students about 
American history by exposing them to high-quality reproductions 
of historic works of art and photographs, as we have here in 
the hearing room.
    I certainly thank Chairman Cole for his leadership at NEH 
and, again, appreciate him being today to share his knowledge 
and expertise.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    I know, Mr. Cole, you are also under constraints to leave. 
Would you mind giving the 5-minute testimony?

 STATEMENT OF BRUCE COLE, CHAIRMAN, NATIONAL ENDOWMENT FOR THE 
   HUMANITIES, ACCOMPANIED BY THOMAS LINDSAY, DEPUTY CHAIRMAN

    Mr. Cole. Thank you very much. Thank you, Madam Chairman 
and distinguished members of the subcommittee. I am honored to 
appear before you to speak on behalf of the National Endowment 
for the Humanities.
    I ask that my prepared remarks be entered into the record.
    The NEH's enabling legislation declares that, ``Democracy 
demands wisdom and vision in its citizens.'' Since 1965, the 
Endowment has fostered this wisdom and vision by promoting 
excellence in the humanities and conveying the lessons of 
history to all Americans.
    Our relatively small agency supports a variety of grant 
programs and special programs. From projects that shed light on 
ancient truths to summer workshops that refresh teachers' 
knowledge of the humanities, the NEH is deeply engaged in our 
nation's cultural life.
    During my time as chairman of the Endowment, we have 
pursued several new initiatives to fulfill our mandate to 
democratize the humanities and bring their benefits to every 
citizen.
    The most prominent is our We the People program, which 
seeks to encourage and strengthen the teaching, study and 
understanding of American history and culture. Today I want to 
highlight the newest element of We the People, an initiative 
called, Picturing America.
    This initiative is bringing high-quality reproductions of 
great American art to schools and public libraries nationwide 
where they can help citizens of all ages connect to the people, 
places and ideas that have shaped our country.
    So far, for the first round, we have had over 30,000 
applications. We will have another round beginning August 4th.
    To give the committee an overview of Picturing America, I 
would now like to play a very brief video produced by the 
Endowment's friends at the History Channel.
    [Video played.]
    Mr. Cole. Obviously just a brief glimpse of our Endowment's 
contribution to our nation's history and culture. And for more 
details, please see my prepared testimony.
    I look forward to answering your questions. Thank you.
    [The statement of Mr. Cole follows:]

Prepared Statement of Bruce Cole, Chairman, National Endowment for the 
                               Humanities

    Madame Chairman and Distinguished Members of the Subcommittee: I am 
honored to appear before you to speak on behalf of the National 
Endowment for the Humanities (NEH). I wish to begin by giving you a 
sense of the Endowment's overall mission, and then discuss the ways we 
are fulfilling this mission through our programs and initiatives.
    Our agency's enabling legislation declares that ``democracy demands 
wisdom and vision in its citizens.'' The Endowment fosters this wisdom 
and vision by promoting excellence in the humanities and conveying the 
lessons of history to all Americans. Since its funding in1965, NEH has 
proved to be an effective way for the federal government to promote the 
study and understanding of history, literature, philosophy, languages, 
and other humanities subjects throughout the nation.
    The NEH provides grants for high-quality projects that seek to 
preserve and provide access to cultural and intellectual resources in 
the humanities; strengthen humanities teaching and learning in the 
nation's schools and institutions of higher education; facilitate basic 
humanities research and original scholarship; and provide opportunities 
for all Americans to engage in lifelong hearing in the humanities. The 
Endowment also provides significant support for the projects and 
programs of our essential partners, the 56 state humanities councils. 
NEH grants typically go to cultural institutions, such as museums, 
archives, libraries, colleges, universities, public television and 
radio stations, and to individual scholars. In fiscal year 2007, we 
received approximately 4,500 applications and awarded nearly 900 
grants.
    As a taxpayer-funded agency, we believe an essential part of the 
Endowment's mandate is to democratize the humanities and bring their 
benefits to citizens across our nation. In recent years, we have 
pursued several new initiatives to fulfill this mandate. The most 
prominent of these is our We the People program, now in its sixth year. 
This program seeks to encourage and strengthen the teaching, study, and 
understanding of American history and culture.
    We created this program to meet a real and significant challenge: 
In recent years, numerous surveys and tests have shown that our society 
is growing less familiar with our origins and key institutions, and our 
citizens less informed about their rights and responsibilities.
    The NEH has a crucial role to play in addressing this worrisome 
trend. Through We the People, we are leading a renaissance in knowledge 
about American history and ideals. Since its inception in 2002, the 
program has received over $66 million in support from the President and 
Congress. The Endowment has used these funds to provide over 1,400 We 
the People grants--and these grants have gone to every state and 
territory in the Union.
    Today, I want to discuss the newest element of We the People--an 
initiative called Picturing America. On February 26, I joined President 
Bush and the First Lady at the White House for the national launch of 
this initiative, which supports We the People's mission in a unique and 
exciting way.
    Americans are united not by race or religion or birth. Instead, we 
are bound by ideas and ideals that every citizen must know for our 
republic to survive. That survival is not preordained: the habits and 
principles of our democracy must be learned anew and passed down to 
each generation. Picturing America helps us meet this challenge, by 
using great American art to ensure that our common heritage and ideals 
are known, studied, and remembered. Works of art are more than mere 
ornaments for the elite; they are primary documents of a civilization. 
A written record or a textbook tells you one thing--but art reveals 
something else. Our students and citizens deserve to see American art 
that shows us where we have come from, what we have endured, and where 
we are headed.
    With this in mind, the NEH has chosen notable works of American art 
that will bring our history and principles alive for students and 
citizens of all ages. Picturing America includes masterpieces of 
painting, sculpture, photography, architecture, and decorative arts, 
including beloved works such as Emanuel Leutze's Washington Crossing 
the Delaware, Norman Rockwell's Freedom of Speech, and Frank Lloyd 
Wright's ``Fallingwater'' house. The featured works range from pre-
colonial times to the present.
    Through Picturing America, NEH is distributing forty large, high-
quality reproductions of these masterpieces to tens of thousands of 
schools and public libraries across America, including public, private, 
parochial, and charter schools, and home school associations. And they 
get to keep these reproductions permanently, ensuring that the 
initiative's impact will be felt for decades.
    Along with the reproductions, schools and libraries will receive an 
in-depth teachers resource book, which helps educators use Picturing 
America to teach history, literature, and other subjects. The Endowment 
has also created a dynamic online resource for all Americans, located 
at http://picturingamerica.neh.gov. This site provides access to the 
images, resource book, and scores of lesson plans, and also provides 
detailed information on the art and artists.
    The scope of this program is unprecedented for the NEH. Through 
Picturing America, we are extending the Endowment's reach 
exponentially. We are broadening public awareness of the humanities by 
bringing American history and art to millions of young people and their 
families. In January we began accepting applications for the fall 2008 
Picturing America awards. By the time we reached the application 
deadline on April 15, Picturing America had received more applications 
than NEH received for all its grant programs over the past six years.
    The initiative also enjoys support from a wide range of federal 
partners, including, to date, the Institute of Museum and Library 
Services, the Office of Head Start, and the National Park Service. The 
Endowment has also forged partnerships with a number of non-federal 
supporters who are helping to extend Picturing America's impact, 
including the American Library Association and the History Channel, as 
well as private philanthropists.
    We are also excited about the role the state humanities councils 
will play in this initiative. The councils have been integral to the 
success of the We the People program, and we look forward to their 
contributions to Picturing America.
    By appealing to our young peoples' eyes, Picturing America will 
make an indelible impression on their minds and hearts. These 
masterpieces will give millions of students and their families a deeper 
understanding of American history and principles--and that will help 
make them better citizens.
    Another way the Endowment is democratizing the humanities is 
through our work in the digital humanities. The humanities are a 
dynamic enterprise, and NEH has a duty to stay abreast of changes in 
the field and provide leadership where it can be most effective. 
Digital technology is bringing the humanities to a vast new audience, 
and changing the way scholars perform their work. It allows new 
questions to be raised, and is transforming how we search, research, 
display, teach, and analyze humanities resources.
    To focus the Endowment's digital efforts and ensure their 
effectiveness, we created an agency-wide Digital Humanities Initiative 
in 2006. In the brief time since its inception, the initiative has 
instituted several grant categories, attracted many new grant 
applicants to the NEH, and funded a wide range of innovative projects. 
To date, the Endowment has made 57 awards for projects that are now 
exploring new approaches to studying and disseminating the humanities. 
More than half of these grantees had never received NEH awards, which 
suggests that we have tapped an important unmet need.
    Building on the success of the initiative and demonstrating our 
long-term commitment to this new frontier in the humanities, we 
recently transformed the initiative into a permanent Office of Digital 
Humanities. This office will work with other NEH staff and scholars, 
and with other funding bodies, both in the United States and abroad, to 
pursue the great opportunities offered by the digital humanities.
    The international nature of the digital humanities is particularly 
important. Digital technology allows scholars from different nations to 
collaborate more closely. To this end, the Endowment is actively 
pursuing joint efforts with our international peers, which helps to 
fulfill the charge in our founding legislation to ``foster 
international programs and exchanges.'' For example, we recently joined 
with the United Kingdom's Joint Information Systems Committee to 
sponsor a program of Transatlantic Digitization Collaboration Grants. 
These grants will help build a ``virtual bridge'' across the Atlantic 
through support of digital projects that will unify American and 
British collections of artifacts, documents, manuscripts, and other 
cultural materials.
    Last year NEH also entered into a partnership with the National 
Research Council of Italy, and we are working on other collaborations 
with agencies in Japan, China, Germany, and Mexico. Digital technology 
offers the Endowment an unparalleled opportunity to fulfill our mandate 
to bring the humanities to every citizen. We are pursuing that 
opportunity aggressively.
    The Endowment's grant-making programs continue to support high 
quality projects in all fields and disciplines of the humanities. These 
time-tested and cost-effective programs advance scholarship, education, 
preservation, and public understanding in the humanities throughout the 
United States. In FY 2007, NEH funds supported nearly 1,100 humanities 
projects in all states of the nation, as well as the District of 
Columbia, Puerto Rico, and the U.S. territories. An additional 2,000 
awards were made, in partnership with the American Library Association, 
to libraries through our annual We the People Bookshelf program. The 
products of these grants, as well as the projects funded through the 
state humanities councils, annually reach millions of Americans of 
diverse backgrounds. In addition to the projects I have already 
mentioned, some of our other recent noteworthy grants and 
accomplishments include:
    <bullet> More than 4,200 teachers from every state of the nation 
participated in NEH-supported seminars, institutes, and workshops in 
2007. Summer seminars and institutes were offered on such diverse 
subjects as Chaucer's The Canterbury Tales, the works of Mark Twain, 
World War II and its legacy in France, the plays of William 
Shakespeare, the significance of Alexis de Tocqueville's Democracy in 
America, and the art of teaching the Italian language through Italian 
art. Landmarks of American History workshops were held for 
schoolteachers at Mount Vernon, Pearl Harbor, the FDR library and 
museum at Hyde Park, and Ellis Island. NEH's education programs are 
based on the idea that students benefit most when their teachers have a 
mastery of their disciplines and are themselves actively engaged in 
learning.
    <bullet> The 56 state humanities councils supported thousands of 
high quality humanities projects that reached millions of Americans. 
These included reading and discussion programs, speakers' bureau 
presentations, local history projects, films, exhibitions, teacher 
institutes and workshops, literacy programs, and Chautauqua-type 
historical performances. Whether through grant-making or sponsoring 
their own programs, state humanities councils strengthen the cultural 
and educational fabric of their states by reaching into rural areas, 
urban neighborhoods, and suburban communities.
    <bullet> Recent NEH grants to produce authoritative editions of the 
papers of notable Americans and other world figures, as well as other 
research tools and reference works, include the papers of Abraham 
Lincoln; a Documentary History of the First Federal Congress; an 
edition of the correspondence of Robert Browning and Elizabeth Barrett 
Browning; a scholarly translation of a collection of ancient Jewish 
writings, including the Dead Sea Scrolls; and an interactive website 
featuring the cartographic history of water systems in ancient Rome. 
NEH also is supporting a project at New York University to digitize 
thousand of pages of Afghan books, serials, and documents published 
between 1870 and 1930 that are currently held in public and private 
collections in the United States, Europe, and Afghanistan. Serious 
works of scholarship such as these are important resources for 
scholars, students, and teachers.
    <bullet> We are continuing our special initiative and partnership 
with the National Science Foundation to document the world's endangered 
languages. This initiative supports projects that create, enhance, and 
deepen our knowledge of the estimated 3,000 currently spoken languages 
that are threatened with extinction in the near future. Thus far, NEH 
has provided 53 awards totaling nearly $4.5 million for projects to 
record, document, and archive information relating to these languages, 
including the preparation of dictionaries, lexicons, and databases. For 
example, recent grants are supporting the preparation of a dictionary 
of Klallam, an endangered Salishan language spoken in Washington state 
and Vancouver Island; the documentation of the linguistic 
characteristics of the Comanche language; and a project at the 
University of California, Berkeley that is enhancing access to 
linguistic materials that document over 130 endangered American Indian 
languages.
    <bullet> Notable NEH-funded television productions that aired on 
PBS recently examined key aspects of American history and culture, as 
well as the history of other nations. The epic series, The War--a 14-
hour, seven-episode film by noted filmmakers Ken Burns and Lynne 
Novick--aired last fall and was watched by nearly 40 million Americans. 
The series covered key events of World War II as seen through the eyes 
of people in four communities in the United States. The Endowment also 
provided funding for a two-hour documentary on Alexander Hamilton, 
architect of the modern American economy, champion of a strong central 
government, and leader of one of the nation's first political parties. 
The prime-time broadcast of this film on PBS was accompanied by an 
extensive website with special features that included an interactive 
timeline, teacher's guide, and video streaming. Another recent film 
NEH-supported, The Rape of Europa, is now being shown through 
theatrical release and at film festivals nationally and 
internationally. Adapted from a National Book Award-winning history by 
Lynne Nicholas, the documentary tells the story of the looting of 
European art treasures by the Nazis during World War II and the efforts 
to restore these artworks to their rightful owners.
    <bullet> The Endowment also is supporting projects related to the 
observance of bicentennial of the birth of Abraham Lincoln in 2009. To 
date, NEH has invested more than $4.7 million in projects that will be 
available to the public during the bicentennial. This includes, for 
example, the creation and nationwide circulation of a panel exhibition, 
``Forever Free: Abraham Lincoln's Journey to Emancipation,'' that 
incorporates rare documents and drawings on Lincoln's role in the 
emancipation of slaves during the Civil War. The exhibition is 
scheduled to travel to more than 100 libraries through early 2010. With 
a grant of $345,000 from NEH, the National Trust for Historic 
Preservation has created an exhibition and guided tours at the newly 
restored Lincoln Cottage in Washington, DC, which was used by Lincoln 
and his family as a seasonal retreat from 1862 to 1864.
    <bullet> Building on our support for projects related to our 16th 
President, the Endowment has embarked on a long-term initiative to 
observe the sesquicentennial of the Civil War in 2011. We have already 
supported a number of planning projects, including a broad-based Civil 
War Sesquicentennial Project hosted by the Chicago Historical Society; 
an exhibition and programs on the war in Missouri; workshops in 
Mississippi for community college faculty on ``War, Death, and 
Remembrance: The Memory and Commemoration of the American Civil War; 
and the preservation of Civil War muster rolls by the Pennsylvania 
Heritage Society. In 2009, the interest among cultural organizations to 
mount such programs will intensify, and NEH is prepared to invest We 
the People funds to support these teaching and learning opportunities.
    Today I have only scratched the surface of the many ways in which 
the Endowment contributes to the well-being of our nation. We are proud 
of NEH's continued role in cultivating the enlightened citizenship that 
our national survival requires.
    Madame Chairman and members of the subcommittee, thank you again 
for this opportunity to discuss the plans and priorities of the NEH.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Cole.
    And I have to say that, being that we are all on the 
Education Committee, most of us spend an awful lot of time in 
schools. And when we see our young students and how bright and 
enthusiastic they are--but we also know that they are into, as 
Mr. Kucinich said, their computers and everything else like 
that. But when you bring the art into the classroom, it just 
certainly brightens their whole world.
    And in my former life before I came here, I was a nurse. 
And I have gotten very interested in art in dealing with the 
mentally ill, on how that changes their world. And we did the 
same thing with the children who lost their parents on 9/11. We 
brought in an art program back into my district to have them 
heal their wounds and certainly express themselves through art.
    So I thank you for that.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    Dr. Cole, thanks for your presentation and sharing the 
video.
    I want to, kind of, echo the chairwoman and especially the 
NEH's partnering with teachers and what a critical partnership 
that is.
    And I know from my own experience, beyond the upbringing of 
my mom and dad and their lessons of being engaged in community 
service, it was my 8th-grade history teacher, social studies 
teacher, that inspired my interest in the political arena and 
in public service. And I have known ever since that this very 
job I now hold is what I hope to do.
    And I think I mentioned when we met recently, my 3rd-grade 
son, Tom, when we were looking at the pictures and the George 
Washington ones, he just did a term paper in 3rd grade--it is 
kind of high-school level from when I was there--on George 
Washington.
    And your organization, NEH, partnering with their teachers 
because of, through them, how you will reach our children in 
just such huge numbers.
    And you mentioned the number of applications you have. And 
I guess that is my one question, is just, if you could expand 
on this new Picturing America and the interest. And my 
understanding is the outreach to, whether it be urban, suburban 
or rural settings, teachers, public schools, charter schools, 
private schools, that it is comprehensive. And if you could 
expand on that, that would be great.
    Mr. Cole. I would be happy to do that.
    Let me just talk a little bit about what the chairwoman 
said.
    I taught, co-taught I should say, in 1st and 4th grade at 
Robert Brent Elementary School here. They are a pilot recipient 
of Picturing America. We piloted in 1,500 schools. Fifty 
percent of those schools were in cities under 25,000.
    I really spent a sleepless night before I did that. I said, 
how am I going to speak to 1st-graders and 4th-graders? When I 
got into that classroom, I was just amazed at the creativity 
and enthusiasm and excitement that these pictures generated, 
not only on the part of the 1st-and 4th-graders, but on the 
part of the teachers. I didn't get a word in edgewise.
    This, Picturing America, extends the NEH's reach 
exponentially. Hitherto, we have supported an effort that 
reached 4,000 libraries. That was our We the People Bookshelf, 
which sends high-quality books on American history themes--
courage, freedom, created equal--to public libraries.
    We had, in 3 months, over 30,000 applications from public 
libraries and schools--schools all over the country and schools 
in our major cities. New York City, which was the first large 
district to come in, has 1,400 schools. This will reach 
1,100,000 students.
    We are going to have a second round, which will begin on 
August 4th. We hope to reach another 30,000 students.
    What I like about this so much is that this is the most 
direct way, the way with the fewest barriers, to get our young 
people and our library patrons into American history and 
culture. And it is especially important, I think, when waves of 
new people are coming to this country and they don't have that 
good language schools.
    And it is not cooked for them, as the teacher said. I love 
this video, because you see it at work. It is not cooked for 
them. It is a process of discovery.
    And the other interesting part of this that I am so 
enthusiastic about is that this will introduce kids to art. I 
taught in university, a Class 1 research university. Many of my 
students, middle-class students, had never been to a museum. 
They had no art in their homes.
    But just think about the millions of kids who are in inner-
city schools, less privileged schools, who will never get to a 
museum, even if a museum is a couple miles away--or rural 
areas. This will introduce them not only to their history in 
the most direct way, with the fewest barriers, but it will also 
give them a sense of the transformative power that art can have 
in their lives. And I think that is a great gift.
    Mr. Platts. Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    With your indulgence now, we are down to zero time for our 
votes, we will run, vote, and come back. So we are in recess. 
We will be back.
    [Recess.]
    Chairwoman McCarthy. The committee will now come to order.
    Let us explain what the situation is. They are starting to 
do some procedural votes, so we are going to have 
interruptions, it seems, continuously. I already have 
permission that I will miss the next vote, and then we will 
have a recommittal, which will be 15 minutes, 10 minutes of 
debate, 15 minutes. So we are hoping that we are going to be 
able to get through at least the testimony before I have to 
leave.
    My colleague has to leave for the 5-minute vote. We are 
going to win, so they don't need my vote. [Laughter.]
    It is nice being in charge.
    Anyway, let us go on.
    Mr. Platts. And, Madam Chair, just to express my 
appreciation to our witnesses as well and understand the 
juggling we are doing. And after this, for the chair, we 
probably have about a 45-minute block before the next long 
series. But we do appreciate your understanding.
    Chairwoman McCarthy. So we should be able to get through 
the testimony.
    May I introduce next Mr. Gioia. He is responsible for the 
agency's national initiatives, a series of programs in 
different disciplines that provide excellent and varied arts 
experiences for audiences across the country. We look forward 
to hearing of this work and other activities at the NEA.
    Now it is also my honor to introduce the mayor of Freeport, 
New York, William Glacken. The village of Freeport is in my 
district, and I was happy to learn that Mayor Glacken attended 
the NEA program, which will help improve the quality of life in 
his village. I look forward to learning of this program and the 
activities that it has spurred.
    I now yield again to Mr. Platts to introduce our next 
witness.
    Mr. Platts. Thank you, Madam Chair.
    I am very pleased and proud to introduce a constituent, 
long-time friend and former coworker. When I was right out of 
college, Jeanne Schmedlen and I had the pleasure to work for 
Governor Thornburgh way back when.
    Jeanne, it is great to see you, and thanks so much for 
being here with us.
    Jeanne currently serves as the director of special projects 
and chief of protocol for the speaker of the Pennsylvania House 
of Representatives and has served as a public servant in state 
government for many years, as I referenced.
    Jeanne has been a life-long supporter of the arts and 
humanities and has volunteered her time as a board member of 
several state, national and local performing and visual arts 
organizations.
    Jeanne is the first Pennsylvanian to be appointed to serve 
on the board of directors of the Pennsylvania Humanities 
Council by two successive governors, importantly, of different 
parties. In Pennsylvania politics, that is quite an 
accomplishment. Jeanne has also served as chairman of the 
board, as well as the development committee chair to the 
Pennsylvania Humanities Council. And for her unwavering support 
of the arts and humanities, Jeanne was recognized as a 
Distinguished Daughter of Pennsylvania in 2005.
    So, Jeanne, thanks so much for being here with us. And I 
hopefully am going to get to hear your testimony, as well. So 
we appreciate your service in Pennsylvania and your testimony 
here today.
    Thank you.
    Chairwoman McCarthy. The next witness is Katrine Watkins. 
Holds two master's degrees, including one in library science. 
For the past 10 years, she has been the librarian at Shaler 
Area Intermediate School. She is a published poet and has 
crafted innovative activities and games for young people. She 
will tell us today about the Picturing America in her school.
    May I apologize for Mr. Altmire; he is on the floor. It is 
his amendment that is up next. So that is why he is not here to 
introduce you.
    Our final witness today is Mr. Ryan Kelly, retired captain 
of the Army National Guard. Today Mr. Kelly will share his 
experiences working with the NEA program Operation Homecoming, 
which helps troops and their families write about their wartime 
experiences. We look forward to learning about this program.
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system--which I did 
in the beginning. For everyone, including members, we are 
limited to 5 minutes for our presentation or questioning.
    We are ready to go.

 STATEMENT OF DANA GIOIA, CHAIRMAN, NATIONAL ENDOWMENT FOR THE 
                              ARTS

    Mr. Gioia. Good morning, Madam Chairman and distinguished 
Ranking Member. And good morning, too, to the hardworking staff 
members here.
    I would like to enter my written testimony into the record 
and spend this time, which is the first time we have had the 
opportunity to speak before this subcommittee, less formally.
    The NEA is a 43-year-old public agency that has made 
enormous contributions to American culture. Yet, despite its 
many accomplishments, in the 1990s the agency became embroiled 
in many controversies that weakened its ability to serve the 
American people.
    When I arrived at the agency 5\1/2\ years ago, the NEA was 
still reeling from the cultural wars. Its morale was low. Its 
strategies were uncertain and defensive. Its relations with 
Congress were problematic. Its reputation with the press was 
mixed, at best. And its credibility with the American people 
had been compromised. While the survival of the agency seemed 
secure, there was a general consensus among all of our 
constituents that our best days were behind us.
    I am both happy and relieved to report that none of these 
issues face us today. The agency is full of renewed energy and 
confidence in its mission. We are backed by the enthusiastic 
support of both the arts and the educational communities. The 
agency's public credibility has never been higher. And we have 
won and, we hope with you, maintain broad bipartisan support 
from Congress. The once-skeptical press now recognizes and 
celebrates our progress.
    In essence, what we have done is to build a positive, 
inclusive, national consensus about the importance of 
supporting the arts and arts education through the federal 
government.
    We have accomplished this turnaround by focusing on three 
core values that are consistent both with the public nature of 
the agency and the nature of art itself. Those values are 
artistic excellence, fair and democratic access, and, finally, 
a belief in the transformative power of art, both in the lives 
of individuals and in communities.
    Now, I could talk about each of these qualities forever, 
but, in the interest of time, I would like to say how they are 
embodied in our very simple mission statement, which is to 
bring the best of arts and arts education to all Americans. And 
we have been committed to this despite our limited budget, our 
limited personnel, and, dare I say, 6 years ago, the widespread 
expectations of failure.
    We have brought this ambitious mission to reality in many 
ways, but most dramatically through the new national 
initiatives that reach, today, every corner of the United 
States. These programs allow the agency to serve millions of 
Americans, especially students, in both cost-effective and 
artistically effective, powerful ways. And we have been able to 
add these ambitious programs without cutting any of our core, 
established programs.
    Now, most of the issues facing local arts organizations, 
individual artists, are national, even global, issues. And the 
local situation is most effectively and efficiently solved by 
strategic national action brought to a local level.
    The nature and quality of these national initiatives is 
perhaps best illustrated through our first one, Shakespeare in 
American Communities. This initiative helps fund superb 
American theater companies to tour and provide high-school 
students with the opportunity to see the Shakespeare play that 
they are actually studying, supported by prize-winning, free 
educational material provided by the NEA to all teachers in 
public, private, religious, and home schools.
    To date, the Shakespeare program has allowed 77 companies 
to visit over 2,300 municipalities and 3,000 high schools 
across all 50 states, as well as military installations, 
providing employment for 2,000 actors, bringing 1.3 million 
students into a professional production of Shakespeare, and, 
perhaps most important, reaching 20 million kids in their 
classrooms. It would be hard to overstate the impact of this.
    We have similar programs in jazz, in poetry recitation. We 
have also done programs such as the Mayors' Institute and 
Operation Homecoming that will be discussed by other witnesses. 
And our American Masterpieces program tours visual, dance, 
theater and music programs and has created the largest literary 
program in the United States.
    And each of these things has been done in partnership with 
regional arts organizations, local arts organizations, 
individual arts organizations, mayors' offices, libraries, and 
schools.
    And during these 5 years, we have also been able to address 
what I think was a major and real issue with the Endowment: a 
perceived elitism, because we did not serve almost 20 percent 
of the United States, representing 80 million people in 125 
congressional districts. I am happy to report that we now reach 
every community in the United States and have had, for the last 
5 years, a grant in every congressional district serving these 
people.
    I look forward to answering any of your inquiries.
    [The statement of Mr. Gioia follows:]

Prepared Statement of Dana Gioia, Chairman, National Endowment for the 
                                  Arts

    Madame Chairwoman and Distinguished Members of the Subcommittee: I 
am honored to appear before the committee to report on the current 
state of the National Endowment for the Arts (NEA) and provide you with 
information on our programs and national initiatives.
    Over the last six years, the National Endowment for the Arts has 
demonstrated what the agency can accomplish with a compelling vision 
and exemplary performance. There is a new consensus in Washington and 
across the nation that the National Endowment for the Arts makes a 
singular contribution to the lives of all Americans. We do this by 
fostering artistic excellence and bringing the best of the arts and 
arts education to all Americans. I am proud to say that the agency is 
now operating with high artistic standards, inclusive partnerships, 
improved efficiency, and unprecedented democratic reach.
I. Background
            The Current State of the Arts in America
    The arts are a reflection of America's identity and civilization--
dynamic, diverse and original. America's artistic achievements 
encompass traditional fields like literature, concert music, painting, 
theater, and design, and pioneering efforts in newer forms such as 
jazz, blues, film, modern dance and musical theater. Over the past 
century, no other nation has surpassed the United States in its 
creative achievements--from the high arts to folk and popular arts. And 
it is not an accident that there is a deep connection between creative 
genius in the arts and our nation's success in science, business and 
technology.
    In other ways, however, we are experiencing an impoverishment of 
American culture. Fifty years ago, along with Mickey Mantle, Willie 
Mays, and Sandy Koufax, most Americans could have named, at the least, 
Robert Frost, Carl Sandburg, Arthur Miller, Thornton Wilder, Georgia 
O'Keeffe, Leonard Bernstein, Leontyne Price, and Frank Lloyd Wright. 
Not to mention scientists and thinkers like Linus Pauling, Jonas Salk, 
Rachel Carson, and Margaret Mead.
    Americans were not smarter then, but American culture was. Even the 
mass media placed a greater emphasis on presenting a broad range of 
human achievement. Televised variety programs like the Ed Sullivan 
Show, featured classical musicians like Jascha Heifetz and Arthur 
Rubinstein, opera singers like Robert Merrill and Anna Moffo and jazz 
greats like Duke Ellington and Louis Armstrong. The same was true of 
literature. Robert Frost, John Steinbeck, Lillian Hellman and James 
Baldwin were featured on general-interest television shows. All of 
these people were famous to the average American--because the culture 
considered them important. Today, no citizen would encounter that range 
of arts and ideas in the popular culture. Almost everything in our 
national culture, even the news, has been reduced to entertainment, or 
altogether eliminated.
    This loss of recognition for artists and thinkers has impoverished 
our culture in innumerable ways. Our children are not presented with 
role models who lead a successful and meaningful life who are not 
denominated by money or fame. Adult life begins in a child's 
imagination and we have relinquished that imagination to the 
marketplace.
    The role of culture must go beyond economics. Culture should help 
us know what is beyond price and what does not belong in the 
marketplace--providing some cogent view of the good life beyond mass 
accumulation. In this respect, our culture is failing us.
            Arts Education
    There is only one social force in America potentially large and 
strong enough to counterbalance this commercialization of cultural 
values--our educational system. At one time the majority of public high 
schools in this country provided a music program with choir and band, 
sometimes a jazz band, or even an orchestra. High schools offered a 
drama program, sometimes with dance instruction. And there were writing 
opportunities in the school paper and literary magazines, as well as 
studio art training.
    We are sorry to note that these programs are no longer widely 
available. This once visionary and democratic system has been almost 
entirely dismantled by well-meaning but myopic school boards, county 
commissioners and state officials. Art has become an expendable luxury, 
and 50 million students have paid the price. Today a child's access to 
arts education is largely a function of his or her parents' income.
    The purpose of arts education is not to produce artists, though may 
be a byproduct. The real purpose of arts education is to create 
complete human beings capable of leading successful and productive 
lives in a free society.
    This is not happening now in American schools. The situation is a 
cultural and educational disaster with huge and alarming economic 
consequences. If the U.S. is to compete effectively in the new global 
marketplace, it is not going to succeed through cheap labor or cheap 
raw materials, nor even the free flow of capital or a streamlined 
industrial base. To compete successfully, this country needs 
creativity, ingenuity and innovation.
            Civic Engagement
    Marcus Aurelius believed that the course of wisdom consisted of 
learning to trade easy pleasures for more complex and challenging ones. 
Our culture is trading off the challenging pleasures of art for the 
easy comforts of entertainment. And that is exactly what is happening--
not just in the media, but in our schools and in civic life.
    Entertainment promises us a predictable pleasure--humor, thrills, 
emotional titillation or even the odd delight of being vicariously 
terrified. It exploits and manipulates who we are rather than 
challenging us with a vision of who we might become.
    Recent studies conducted by the National Endowment for the Arts, in 
partnership with the U.S. Census, have found that our country is 
dividing into two distinct behavioral groups. One group spends most of 
its free time sitting at home as passive consumers of electronic 
entertainment. The other group also uses and enjoys the new technology, 
but these individuals balance it with a broader range of activities. 
They go out--to exercise, play sports, volunteer and do charity work at 
about three times the level of the first group. What is the defining 
difference between passive and active citizens? It is not income, 
geography or even education. It is whether or not they read for 
pleasure and participate in the arts. These cultural activities seem to 
awaken a heightened sense of individual awareness and social 
responsibility.
    Today, there is a growing consensus across the country that 
something must be done to fill the vacuum created in many lives with 
the dominance of the commercial mass media and entertainment, and the 
loss of arts education in our schools. The mission of the National 
Endowment for the Arts is to provide national leadership to encourage 
and preserve excellent art; to help make it available to all Americans, 
especially those who traditionally have not had access to it because of 
economic and geographic barriers; and to connect and engage children 
and youth with America's distinguished artistic legacy.
II. NEA Goals and Accomplishments
    Over the last six years, the National Endowment for the Arts has 
refocused its programs to emphasize excellence and service to the 
American people. We have piloted and launched successful new approaches 
to public outreach and retooled our capacity to develop and deliver 
programs that celebrate the best of our culture.
    Today, we celebrate America's great artists as recipients of NEA 
Jazz Masters, NEA National Heritage Fellows, National Opera Honors 
recipients, and National Medal of Arts awards--not only with a one-time 
award, but also with national events broadcast on television and radio. 
We showcase the contributions of Jazz, Shakespeare and poetry in 
classrooms using our multi-media educational toolkits provided free to 
middle and high school teachers. And we provide exemplary materials and 
programming that make it possible for communities and generations to 
come together to read of a literary masterpiece.
    The Arts Endowment's programs now reach into every corner of our 
nation--bringing the best of the arts and arts education to the 
broadest and most varied audiences possible.
    NEA grants are producing economic benefits throughout the country 
by nurturing local arts groups that enhance local economies. With each 
dollar awarded by the NEA generating on average $6-$7 dollars from 
other sources, the NEA is triggering an investment of approximately 
$600 million for the arts from private donors and non-federal sources.
    We welcome this opportunity to showcase the following programs and 
national initiatives that exemplify NEA's effort to serve the American 
people through commitment to excellence, broad geographic reach, and 
arts education.
            Challenge America: Reaching Every Community
    The creation of the Challenge America program in 2001 marked a 
turning point in NEA history by challenging the NEA to broaden its 
service to Americans outside established cultural centers. The 
Challenge America program enabled the NEA to broaden the geographic 
distribution of grants; although initially, it failed to fully realize 
its goals of reaching the entire nation. In an average year, NEA direct 
grants collectively reached only about three quarters of the United 
States (as measured by Congressional districts). Consequently, areas of 
the nation representing more than 70 million citizens received limited 
direct service from the agency.
    Five years ago, we set the goal of awarding at least one direct 
grant to a deserving arts organization in every Congressional district 
in the United States. In fact, we even changed the name of the program 
from Challenge America to Challenge America: Reaching Every Community. 
More than just a name, this change reflected a renewed commitment to 
public service and outreach. In 2005, in 2006, and again in 2007, the 
NEA realized 100% coverage with direct grants awarded in all 435 
districts. In 2008, the NEA will again achieve its 100% coverage goal. 
The Arts Endowment considers the new Challenge America program one of 
its central achievements.
            Partnerships
    Everything the NEA does it does in partnership. This is most 
obvious in the agency's basic grant matching requirements whereby the 
NEA leverages federal dollars by achieving private sector matches. Less 
evident but equally important this partnership strategy strengthens 
local arts organizations and builds communities. NEA's project grants 
develop partnerships in a direct way by encouraging local investment in 
arts organizations. Our national initiatives create partnerships of 
enormous range and diversity--uniting government, non-profit, and 
private sector organizations in support of arts and arts education 
across the nation.
    A Big Read grant, for example, originates from the Arts Endowment 
but is administered by Arts Midwest, a regional arts organization. Each 
grant is then awarded to a local applicant (usually a library, museum, 
or literary organization) which uses it to build local partnerships 
that can easily involve more than a hundred organizations, including 
schools, newspapers, public radio and television stations, cultural 
institutions, chambers of commerce, private business, and mayors' 
offices. Multiply these local networks across hundreds of Big Read 
cities in all 50 states, and one finds tens of thousands of partners 
all focused on celebrating literature. Such programs help realize the 
initial vision of the NEA by its founders 43 years ago to be a catalyst 
of American creativity in every corner of the nation.
III. National Initiatives
            American Masterpieces
    Many Americans are unfamiliar with the significant artistic and 
cultural achievements of our nation. They have few opportunities in 
school or daily life to learn about the arts or acquire skills to 
appreciate or participate in them. To address this challenge, the Arts 
Endowment established American Masterpieces: Three Centuries of 
Artistic Genius. It vividly embodies the goals of excellence and 
outreach by featuring educational programs along with presentations of 
artistic works themselves.
    Now in its fourth year, American Masterpieces has added chamber 
music and presenting to visual arts, dance, choral music, musical 
theater, and literature. American Masterpieces grants have enabled 31 
museums in 16 states to tour exhibitions to 142 cities across the 
nation, reaching an estimated audience of 12 million. Choral music 
grants have supported the creation of eight regional festivals 
celebrating American choral music in 12 states and the District of 
Columbia. Fifty-four grants are helping dance companies and college 
dance programs revive and tour American choreographic masterpieces. In 
musical theater, 13 theater companies in 18 states are reviving and 
touring significant American musicals. All these programs are reaching 
underserved rural and urban communities and introducing new generations 
to their rich artistic legacy.
            The Big Read
    In November 2007, the NEA followed its widely discussed 2004 report 
Reading at Risk with a comprehensive new study To Read or Not to Read: 
A Question of National Consequence. This new report presents the 
results of governmental and private sector studies on reading. The data 
in To Read or Not To Read paints a simple, yet sad, portrait of reading 
in America today--Americans, especially teenagers and young adults, are 
reading less. Because they read less, they do not read as well. This 
decline in reading ability has a measurably negative impact on their 
educational, economic, personal, and civic lives and our nation's 
future.
    Challenged to stem the decline in reading, the NEA has expanded the 
literary component of American Masterpieces called The Big Read. With 
Mrs. Laura Bush as its honorary chair, the Endowment is uniting 
communities and generations through the reading and discussion of a 
common book. To make The Big Read work, communities are creating new 
partnerships involving schools, libraries, literary centers, arts 
councils, dance and theater companies, symphony orchestras, museums, 
and television and radio stations, as well as mayors' offices and 
chambers of commerce--all with the common goal of broadening the 
reading of quality literature in every segment of the community.
    In 2008, The Big Read will provide grants to cities, large and 
small, across all 50 states. The goal is to reach a total of 400 
cities, touching every U.S. Congressional district. Widely covered in 
the press, The Big Read has become a national symbol of the importance 
of reading in a free society.
            Poetry Out Loud
    Meanwhile, the NEA's high school poetry recitation contest, Poetry 
Out Loud, is currently completing its third national year in 2008. 
Cosponsored by the state arts agencies, this highly popular program 
reaches all fifty states plus the U.S. Virgin Islands and the District 
of Columbia. Since it began as a pilot program in 2005, nearly 450,000 
students have entered the competition. This program combines literary 
education and practical training in public speaking with the thrill of 
competition.
    One unexpected development in Poetry Out Loud has been its enormous 
popularity with the press, which often covers this arts program as if 
it were local sports. The NEA takes special pride in seeing young arts 
participants recognized publicly in their own communities on a par with 
local star athletes.
            Shakespeare in American Communities
    The NEA's Shakespeare program is now in its fifth year with 
Shakespeare for a New Generation, a program that focuses on providing 
American students an opportunity to see a live professional performance 
of Shakespeare. By the end of 2008, some 175 grants will have been 
awarded to 77 theater companies to bring productions of Shakespeare to 
more than 2,300 communities in mostly small and mid-sized cities, 
including18 military bases. Nearly 2,000 actors have performed for 1.2 
million students attending 3,600 middle and high schools.
    The award-winning NEA Shakespeare in American Communities classroom 
toolkit has now been distributed free to 55,000 schools (32% of which 
are located in rural communities) reaching 20 million students. The 
NEA's Shakespeare program has reached deeply into all 50 states with an 
overwhelmingly positive response from teachers and students alike.
            NEA Jazz in the Schools
    The Arts Endowment's long-standing support of jazz was broadened in 
2006 with the NEA Jazz in the Schools program, an engaging and 
substantive introduction to jazz created for high schools. Developed 
with Jazz at Lincoln Center, an academic tool-kit, made available in 
January 2006, proved so popular that every kit was quickly requested by 
teachers across the U.S. The NEA's recent budget increase allowed us to 
create more kits to meet thousands of unfilled backorders. The NEA Jazz 
in the Schools kit is now used by over 11,000 teachers in 8,100 schools 
across all fifty states.
    Used by teachers during Black History Month, as well as throughout 
the year, the program reaches some 5.6 million students, introducing 
students to jazz as a distinctively American art form as well as a 
powerful and positive force in African-American social history. This 
educational program was added while the agency maintained its NEA Jazz 
Masters touring, radio, and awards programs.
            Operation Homecoming and Other Programs for the Military
    The NEA concluded the first phase of its historic Operation 
Homecoming program last year. Supported by The Boeing Company, the 
program brought 55 writing workshops to U.S. military bases in five 
countries, involving 6,000 troops and their spouses. The program 
climaxed with the publication of wartime writing by U.S. troops in The 
New Yorker and a volume by Random House, as well as the production of 
two films, one of which became a finalist for the 2008 Academy Award 
for best full-length documentary.
    The program was so meaningful to U.S. troops that we initiated a 
second phase focusing on the servicemen and servicewomen most deeply 
affected by the war. Phase II of Operation Homecoming will sponsor 
extended writing workshops led by noted American authors in 25 Veterans 
Administration and Department of Defense medical facilities as well as 
V.A. centers across the nation.
            International Initiatives
    When I came to the NEA in 2003, I was dismayed to learn how little 
was done in international cultural exchange. Over the past few years, 
the NEA has focused on developing several programs that showcase 
America's artistic creativity and excellence abroad. We now provide 
assistance to U.S. music and dance ensembles invited to perform in 
international festivals, and we have joined with the Open World 
Leadership Program to support short-term residencies for Russian 
artists and arts administrators with U.S. arts groups.
    As a partner in the State Department's Global Cultural Initiative 
launched in 2006, the NEA has begun a series of international literary 
exchanges with Russia, Mexico, Egypt, Pakistan, and other nations. The 
State Department has recognized the potential of The Big Read to serve 
as an effective vehicle for cultural diplomacy. Big Read programs have 
now been initiated as mutual cultural exchanges between the U.S. and 
Russia, Egypt, and Mexico. American novels are featured in civic 
reading programs in those nations while classics of Russian, Egyptian, 
and Mexican fiction have become part of the U.S. domestic program. 
These bilateral literary programs also provide the basis for 
unprecedented exchanges as groups of writers, teachers, and librarians 
visit the host cities in each nation.
IV. Looking to the Future
    As we look to the future, at least two major challenges face the 
NEA and the citizens it serves. The first is the diminished state of 
arts education in the nation's schools. There is now an entire 
generation of young Americans for whom the arts have not played a 
significant role in their intellectual and personal development. This 
trend is not merely a cultural matter but a social and economic one. As 
these young men and women enter the new global economy of the twenty-
first century, many of them will not have had opportunities to develop 
the skills of innovation and creativity they need to succeed. American 
schools need help to better realize and achieve the full human 
potential of their students. While we are proud of our current arts 
education programs, we are also deeply conscious of the millions of 
students, especially in the earlier grades, whom we do not reach at 
all.
    The second challenge speaks to an even broader issue, namely 
America's place in the world. The United States needs to expand its 
cultural exchanges with other nations. This investment in cultural 
diplomacy would not only benefit American artists by providing them 
with greater opportunities, but more important, it would help the 
nation itself more effectively communicate with the rest of the world 
in ways that transcend political and economic issues. The arts have the 
potential to represent the best aspects of a free and diverse democracy 
in a way that speaks to the hearts and minds of people everywhere. It 
would be an enormous missed opportunity if the United States did not 
use the creativity of its own people in addressing the rest of the 
planet.
    The arts offer us an irreplaceable way of understanding and 
expressing the world--equal to but distinct from scientific and 
conceptual methods. Art addresses us in the fullness of our being--
simultaneously speaking to our intellect, emotions, intuition, 
imagination, memory and physical senses. There are some truths about 
life that can be ex pressed only as stories or songs or images. Art 
delights, instructs, consoles. It educates our emotions. And it 
remembers. Art awakens, enlarges, refines and restores our humanity.
    As we contemplate the future of the National Endowment for the 
Arts, we remain confident in the continuing relevance of our mission to 
bring the best of the arts--new and established--to all Americans. The 
Arts Endowment's goal is to enrich the civic life of the nation by 
making the fruits of creativity truly available throughout the United 
States. In a dynamic nation with a growing and diverse population, this 
goal will remain a constant challenge: a great nation deserves great 
art.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Next, Mayor Glacken?

             STATEMENT OF WILLIAM F. GLACKEN, MAYOR

    Mr. Glacken. Madam Chair, Ranking Minority Member and 
members of the subcommittee, I thank you for the opportunity to 
address the House of Representatives' Committee on Education 
and Labor Subcommittee on Healthy Families and Communities 
hearing on the National Endowment for the Arts and the National 
Endowment for the Humanities, scheduled for this morning, May 
8th.
    I have been the mayor of the incorporated village of 
Freeport, New York, a highly culturally diverse community of 
44,000, situated on the south shore of Long Island, 
approximately 29 miles east of Manhattan, since 1997.
    In December of 2006, I had the privilege of attending the 
Northeast Mayors' Institute on City Design, held at the 
Massachusetts Institute of Technology in Cambridge, 
Massachusetts. The institute is a program of the United States 
Conference of Mayors and the National Endowment for the Arts 
with collaborating universities, in this case MIT.
    And each organization provided personnel who actively 
participated in the conference. The NEA's design director at 
that time, Jeff Speck, was one of the most active and valuable 
members of the resource team.
    The Mayors' Institute program provides a very unusual 
opportunity for a small number of elected officials, academic 
experts and design professionals to spend time together, 
focusing on and applying their expertise to real-world problems 
that affect the future of the communities that each mayor 
represents.
    At MIT, I was one of eight mayors participating. One of the 
unique elements of the program is that mayors are asked to 
attend without their planning or other supporting staff and to 
present in their own words the specific design or planning 
problem facing their communities. Then the problem is opened up 
to analysis and feedback, not only from the resource team 
professionals, but especially from the other mayors, who speak 
the same language and understand the challenges and 
opportunities of real-world governance as no one else can.
    The case history sessions are alternated with presentations 
by the resource team on general aspects of urban design. These 
presentations were a valuable part of the whole experience and 
reinforced the message that community design is a critically 
important process and that mayors need to be directly involved.
    When my turn came, I presented the problem of revitalizing 
Freeport's North Main Street corridor, a one-mile corridor 
running north from the Long Island railroad station in downtown 
Freeport, which has resisted positive change for decades and 
which remains the worst-looking, most run-down portion of what 
is otherwise an attractive, stable, middle-class, residential 
community.
    In the course of the 3-day conference, an intense 
examination of the problem by all of the participants pointed 
the way to some very positive solutions, which I found highly 
encouraging. In fact, at one point during the conference, one 
of the participants remarked, in referring to the North Main 
Street corridor, ``What you have here, Mayor Glacken, is a gold 
mine.''
    I left the conference feeling both enthusiastic and greatly 
encouraged, and with a focus on implementing the recommendation 
that we pursue a full, comprehensive plan for the corridor and 
develop the zoning changes that would be needed to make real 
change.
    The process of assembling the necessary funding took over a 
year, but with our own resources from the Community Development 
Block Grant program, assistance from Nassau County, and a 
special appropriation obtained through the efforts of 
Congresswoman McCarthy and Senators Schumer and Clinton, we are 
now in a position to hire a smart-growth planning firm with a 
regional or national reputation to complete the North Main 
Street corridor plan, including a form-based zoning code, which 
the village of Freeport will adopt some time next year.
    I am sure that every mayor in this country could tell you 
about the increasing limitations we have on the resources 
available to apply to the challenges we face. There is never 
enough time or money to do all that needs to be addressed.
    At the Mayors' Institute, there was time to learn from 
outstanding professionals and to discuss common problems with 
fellow mayors. What a luxury that seemed during the weekend, 
and what a positive outcome it is now producing for Freeport.
    Planning is the key to the successful revitalization of 
aging downtowns across this country, because great places don't 
happen by accident. The active participation and funding of 
agencies such as the National Endowment for the Arts ensure 
that the Mayors' Institute program remains a rich, multifaceted 
experience, one that includes the elements of beauty and 
delight, along with utility and functionality.
    I urge you to support NEA's continued involvement in this 
and other programs that have a real impact on communities like 
mine across the country.
    Thank you.
    [The statement of Mr. Glacken follows:]

   Prepared Statement of Hon. William F. Glacken, Mayor, Freeport, NY

    Madame Chair, Ranking Minority Member and Members of the 
Subcommittee: I thank you for the opportunity to address the House of 
Representatives' Committee on Education and Labor Subcommittee on 
Healthy Families and Communities Hearing on the National Endowment for 
the Arts and the National Endowment for the Humanities, scheduled for 
this morning, May 8th. I have been the Mayor of the Incorporated 
Village of Freeport, New York, a highly culturally diverse community of 
44,000 situated on the south shore of Long Island, approximately 
twenty-nine (29) miles east of Manhattan, since 1997. In December 2006, 
I had the privilege of attending the Northeast Mayors' Institute for 
City Design, held at the Massachusetts Institute of Technology, in 
Cambridge, Massachusetts. The Institute is a program of the United 
States Conference of Mayors and the National Endowment for the Arts 
with collaborating universities (in this case MIT), and each 
organization provided personnel who actively participated in the 
conference. The NEA's Design Director at that time, Jeff Speck, was one 
of the most active and valuable members of the resource team.
    The Mayors' Institute program provides a very unusual opportunity 
for a small number of elected officials, academic experts, and design 
professionals to spend time together focusing on, and applying their 
expertise to, real world problems that affect the future of the 
communities that each Mayor represents. At MIT, I was one of eight 
Mayors participating. One of the unique elements of the program is that 
Mayors are asked to attend without their planning or other supporting 
staff, and to present in their own words the specific design or 
planning problem facing their communities. Then the problem is opened 
up to analysis and feedback, not only from the resource team 
professionals, but especially from the other Mayors, who speak the same 
language and understand the challenges and opportunities of real world 
governance as no one else can. The case history sessions are alternated 
with presentations by the resource team on general aspects of urban 
design. These presentations were a valuable part of the whole 
experience, and reinforced the message that community design is a 
critically important process, and that Mayors need to be directly 
involved.
    When my turn came, I presented the problem of revitalizing 
Freeport's North Main Street Corridor, a one-mile corridor running 
north from the Long Island Rail Road station in downtown Freeport, 
which has resisted positive change for decades, and which remains the 
worst looking, most run-down portion of what is otherwise an 
attractive, stable, middle class residential community. In the course 
of the three-day conference, an intense examination of the problem by 
all of the participants pointed the way to some very positive 
solutions, which I found highly encouraging. In fact, at one point 
during the conference, one of the participants remarked, in referring 
to the North Main Street Corridor, ``What you have here, Mayor Glacken, 
is a goldmine!''
    I left the conference feeling both enthusiastic and greatly 
encouraged, and with a focus on implementing the recommendation that we 
pursue a full comprehensive plan for the corridor and develop the 
zoning changes that would be needed to make real change.
    The process of assembling the necessary funding took over a year, 
but with our own resources from the CDBG program, assistance from 
Nassau County and a special appropriation obtained through the efforts 
of Congresswoman McCarthy and Senators Schumer and Clinton, we are now 
in a position to hire a smart-growth planning firm with a regional or 
national reputation to complete the North Main Street Corridor plan, 
including a form-based zoning code, which the Village of Freeport will 
adopt some time next year.
    I am sure that every Mayor in this country could tell you about the 
increasing limitations we have on the resources available to apply to 
the challenges we face. There is never enough time or money to do all 
that needs to be addressed. At the Mayors' Institute, there was time to 
learn from outstanding professionals, and to discuss common problems 
with fellow Mayors. What a luxury that seemed during the weekend, and 
what a positive outcome it is now producing for Freeport.
    Planning is the key to the successful revitalization of aging 
downtowns across this Country, because great places don't happen by 
accident. The active participation and funding of agencies such as the 
National Endowment for the Arts, ensure that the Mayors' Institute 
program remains a rich, multi-faceted experience, one that includes the 
elements of beauty and delight along with utility and functionality. I 
urge you to support NEA's continued involvement in this and other 
programs that have real impact on communities like mine across the 
country. Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mayor.
    Ms. Schmedlen?

STATEMENT OF JEANNE H. SCHMEDLEN, DIRECTOR OF SPECIAL PROJECTS 
AND CHIEF OF PROTOCOL OFFICE, SPEAKER OF THE PENNSYLVANIA HOUSE 
                       OF REPRESENTATIVES

    Ms. Schmedlen. Good morning. Thank you, Madam Chair.
    Thank you, Congressman, for asking me to be here today. 
Appreciate it.
    In delivering the Nancy Hanks Lecture in March, modern 
philosopher Daniel Pink spoke of society's required shift to 
creativity and innovation for the United States of America to 
remain a leader in the new global economy.
    Bob Lynch of Americans for the Arts, in recent testimony, 
said that, ``Art is a pillar of creativity and innovation.'' 
So, too, are the humanities.
    Together, the arts and humanities have become our 21st-
century keystone for the future in our economy, in education, 
and enlightenment.
    I am Jeanne Schmedlen, as Congressman Platts said. I am 
director of special projects and chief of protocol for the 
speaker of the Pennsylvania House of Representatives, Dennis M. 
O'Brien. Previously, I have held senior staff positions with 
two speakers, a first lady, and a governor. And I think I know 
the commonwealth well.
    I am a life-long supporter of the arts and the humanities. 
And I greatly value the contributions of the National 
Endowments to the well-being of Pennsylvania over the past 40 
years.
    The Endowments elevate, educate and stimulate like no other 
federal agencies. And they do this through direct grants and, 
more importantly, through support of their state counterparts.
    Today I would like to talk about how our partnerships with 
the Endowments allow us to reach some of whom I consider 
underserved populations in Pennsylvania, those living in the 
vast regions between Philadelphia and Pittsburgh and in our 
northern and southern tiers.
    As the former chair of the Pennsylvania Humanities Council, 
I know the value of state councils in extending the reach of 
the humanities to underserved populations. Across the country, 
councils use their funding from the NEH's federal-state 
partnership to do this. And this means starting and developing 
relationships that last over many years, and building the 
capacity of rural organizations to do high-quality programming, 
connect better to their surrounding communities, and expand 
public participation in the humanities.
    In Pennsylvania, I have seen the council devote enormous 
staff effort to reach into every county in the commonwealth. 
And we have 67 counties. Just last December, in making 
decisions on grants, we were delighted that the application 
judged to be the highest quality was from the Northern Tier 
Cultural Alliance. It was for ``2008: The Year of the Barn,'' 
and it was a project on the importance of agriculture in the 
heritage and culture of Pennsylvania's north country.
    We shaped our speakers bureau, Commonwealth Speakers, to be 
the strongest in presentations rooted in state heritage and the 
arts and made this a 67-county program every year.
    One of our speakers gave a presentation in remote Cameron 
County on ``Bagpipes: A Historical Perspective.'' Sixty people 
showed up, and he said, ``As always, rural areas are starving 
for more cultural programs. An audience such as this was rather 
large for such a small community, which indicates the need.''
    In the 19th Congressional District, Congressman Platts's 
district, where I live, which serves Adams, Cumberland and York 
Counties, I know that there has been an abundance of 
Commonwealth Speaker presentations. In the 2-year program 
between 2006 and 2007, there were 31.
    The PHC also has forged a splendid partnership with the 
Pennsylvania General Assembly. And together, we annually host 
the Speaker's Millennium Lecture at the Capitol, just across 
the river from Cumberland County.
    Most of our live audience for the free public lecture by 
prominent historians, academics and authors come from the 19th 
District, and our Pennsylvania Cable Network broadcasts the 
lecture far and wide across the state, reaching millions in 
rural areas as well as urban. Speakers have included historian 
David McCullough and author John Updike.
    The PHC systematically promotes humanities programs to 
county historical societies in rural counties and has achieved 
amazing results there. I would like to refer to my written 
testimony for other examples of arts and humanities programs in 
rural areas.
    And I would just like to conclude--here we are. I would 
like to repeat my opening statement: The arts and humanities 
truly are our keystone for the future. The ingenuity of the 
mind cannot be computerized or outsourced. The power to create 
and learn is in all of us. And through every citizen's 
continued access to arts and humanities programs, we can 
cultivate and unleash the innovation and creative spirit that 
will sustain our country's leadership and enrich and enhance 
our lives through the 21st century and beyond.
    I am sorry I went so long, ma'am.
    [The statement of Ms. Schmedlen follows:]

  Prepared Statement of Jeanne H. Schmedlen, Board Member and Former 
       Chair, Pennsylvania Humanities Council; Former Speaker's 
            Representative, Pennsylvania Council on the Arts

    Mr. Chairman and Members of the Subcommittee: In delivering the 
Nancy Hanks Lecture in March, modern philosopher Daniel Pink spoke of 
society's absolutely required shift to creativity and innovation for 
the United States of America to remain a leader in the new global 
economy. Bob Lynch of Americans for the Arts, in recent testimony said 
that ``art is a pillar of creativity and innovation.'' So are the 
humanities. Together, the arts and humanities have become our 21st 
century keystone for the future, in our economy, in education, in 
enlightenment.
    I am Jeanne Schmedlen, Director of Special Projects and Chief of 
Protocol for the Speaker of the Pennsylvania House of Representatives, 
Dennis M. O'Brien. Previously, I held senior staff positions with two 
Speakers, a First Lady and a Governor. I know the Commonwealth well, I 
am a lifelong supporter of the arts and humanities and I greatly value 
the contributions of the National Endowments to the well-being of 
Pennsylvania over the past forty-plus years. The endowments elevate, 
educate and stimulate like no other federal agencies and they do this 
through direct grants and, more importantly, through support of their 
state counterparts. Today I will talk about how our partnerships with 
the endowments allow us to reach some of whom I consider underserved 
populations in Pennsylvania--those living in the vast region between 
Philadelphia and Pittsburgh and in our northern and southern tiers.
    As former chair of the Pennsylvania Humanities Council, I know the 
value of the state councils in extending the reach of the humanities to 
underserved populations. Across the country, councils use their funding 
from the NEH's Federal-State Partnership to do this. And this means 
starting and developing relationships that last over many years, and 
building the capacity of rural organizations to do high quality 
programming, connect better to their surrounding communities and expand 
public participation in the humanities.
    In Pennsylvania, I have seen the council devote enormous staff 
effort to reach into every county in the Commonwealth, and there are 
67. Just last December, in making decisions on grants, we were 
delighted that the application judged to be the highest quality was 
from the Northern Tier Cultural Alliance for ``2008: The Year of the 
Barn,'' a project on the importance of agriculture in the heritage and 
culture of Pennsylvania's north country.
    We shaped our speakers bureau, Commonwealth Speakers, to be 
strongest in presentations rooted in state heritage and the arts and 
made this a 67-county program almost every year.
    One of our speakers, Paul Ferhrenbach, gave a presentation in 
remote Cameron County on ``Bagpipes: A Historical Perspective.'' Sixty 
people showed up. He told us: ``As always, rural areas are starving for 
more cultural programs. An audience such as this was rather large for 
such a small community--which indicates this need.''
    In the 19th Congressional district, where I live, which includes 
Adams, Cumberland and York counties, I know that there has been an 
abundance of Commonwealth Speaker presentations. In the two-year 
program period of 2006-2007, there were 31. The PHC also has forged a 
splendid partnership with the Pennsylvania General Assembly and 
together, we annually host the Speaker's Millennium Lecture at the 
Capitol, just across the river from Cumberland County. Most of our live 
audience for the free public lecture by prominent historians, academics 
and authors come from the 19th district and our Pennsylvania Cable 
Network (PCN) sends the lecture far and wide across the state, reaching 
millions more. We hosted John Updike and David McCullough for these 
lectures, among others.
    The PHC systematically promotes humanities programming to county 
historical societies in rural counties and has achieved amazing results 
there with groups such as the Warren Historical Society and the 
Jefferson County Historical Society, variously embracing Native 
American history, family histories, the heyday of the timber industry, 
the Depression, World War II and the New Deal. Empowered by the 
council's support, the Jefferson County group also achieved a major 
direct grant from the National Endowment for the Humanities.
    The PHC also formed a partnership with the state arts council to 
expand arts-related programming into rural areas. The council linked 
art to heritage and this had strong appeal in rural regions. The PHC 
awarded a grant to the Community Education Council of Elk and Cameron 
Counties for ``Young Mark Twain,'' a presentation by the Pittsburgh 
Civic Light Opera's Gallery of Heroes program. The presentation at five 
elementary schools meant, for many children in this remote rural area, 
the first time that they had seen a performance by a professional 
theater company.
    The council has worked intensively with public libraries in rural 
districts to expand their programming for adult and inter-generational 
audiences, especially in literature, through its book discussion 
series, Read About It! Since 2000 41% of these discussions have been in 
rural counties.
    The council also has developed special projects with NEH funds, and 
then leveraged its success to raise private money for specifically 
rural projects. An example is ``Technology and Community,'' developed 
with NEH funds and then expanded with a grant from the Heinz 
Endowments, and, later, ``Schools and Communities,'' a public 
engagement project for schools in southwestern Pennsylvania, also 
funded by the Heinz Endowments.
    In addition, the council has taken the initiative to shape the 
behavior of large institutions located in rural areas, in order to make 
them more responsive to local needs. An outstanding example of this is 
the partnership with the Institute for the Arts and Humanities at Penn 
State. Together, we developed ``Public Humanities Scholars'' to match 
Penn State faculty from its main and branch campuses with local 
organizations to both plan and conduct public programs in16 mostly 
rural counties.
    I greatly value my close association with the Pennsylvania Council 
on the Arts (PCA). Here I have seen a deep commitment to outreach to 
previously underserved regions which has been greatly expanded during 
recent administrations.
    Just last month, 20 Pennsylvania communities across the 
Commonwealth participated in PCA's American Masterpieces, a four-week 
tour of the works of American master choreographer and Pennsylvania 
native Paul Taylor's dance companies. Students in small cities across 
the state gained an unsurpassable experience and creative opportunity 
in their own Pennsylvania hometowns that would not have been available 
to them otherwise.
    Federal arts funding also flows to benefit Pennsylvania's school 
students and help build the workforce of the future through the PCA's 
Arts in Education Partnership. NEA funding in partnership with state 
dollars assists hundreds of Pennsylvania's schools to support 
curriculum, enrich the important work of art educators and provide 
additional opportunities for students to explore and develop their 
creative abilities.
    Other arts education projects in previously underserved regions 
undertaken by the PCA include:
    Aliquippa Middle School in Beaver County, where 7th and 8th grade 
students worked with textile artist Cathleen Richardson Bailey on a 
collaborative quilt project, ``From Our Hands,'' designed to stimulate 
creativity, cognizant and tactile abilities.
    Colonial Intermediate Unit 20 in the Lehigh Valley's RESOLVE 
program hosted a residency by ensemble members of Touchstone Theatre. 
RESOLVE serves 12 school districts in Monroe and Northampton counties 
and is part of the intermediate unit's work with students from Partial 
Hospitalization Program sites and Emotional Support program classrooms.
    A sculpture garden was created by an artists and students at the 
Bentworth Elementary School in rural Bentlyville.
    South Brandywine Middle School in Coatesville developed a residency 
with The People's Light & Theatre Company as part of their social 
studies curriculum in exploring Underground Railroad history with 8th 
grade students.
    As a result of its groundbreaking work with 17 Bradford-Tioga Head 
Start centers across Pennsylvania's north central region, the rural 
Northern Tier Partnership for Arts in Education/Bradford County 
Regional Arts Council was named one of three international models for 
its Learning Communications Skills through the Arts program in early 
education.
    Yet another outstanding example of educational excellence fostered 
by federal and state arts dollars took place just yesterday in the 
Chamber of the Pennsylvania House of Representatives during our state's 
annual Arts in Education Day celebration. Pennsylvania State Poetry Out 
Loud Champion, Francesca Fiore, a West Chester Area School District 
student recited a poem to enthusiastic response from the House members. 
Her performance was carried ``live'' across the state by PCN, to 
communities large and small.
    The arts and humanities truly are our keystone for the future. The 
ingenuity of the mind can not be computerized or outsourced. The power 
to create and learn is in all of us and through every citizen's 
continued access to arts and humanities programs we can cultivate and 
unleash the innovation and creation that will sustain our country's 
leadership and enrich and enhance our lives through the 21st century 
and beyond.
                                 ______
                                 
    Chairwoman McCarthy. It is quite all right. Thank you very 
much.
    Ms. Watkins?

     STATEMENT OF KATRINE WATKINS, LIBRARIAN, SHALER AREA 
                      INTERMEDIATE SCHOOL

    Ms. Watkins. Good morning.
    Nine hundred 8th-and 9th-graders attend Shaler Area 
Intermediate School in Glenshaw, Pennsylvania, a community 
bordering on Pittsburgh. On a cold and snowy day this past 
January, we unpacked the Picturing America posters. We oohed 
and aahed, and then made John J. Audubon's ``American 
Flamingo'' the unofficial mascot of our school library.
    Since then, the Picturing America grant from the National 
Endowment for the Humanities has truly enriched our lives. The 
Picturing America posters dovetail perfectly with our American 
Cultures courses. This semester, we have used the poster images 
in research projects on topics such as the Industrial 
Revolution, Pennsylvania Folk Art, and the Jazz Age, as well as 
for a display in our library during February for Black History 
Month.
    Art teachers have also used the Picturing America posters 
to highlight the American art in our district curriculum, 
especially those artists with a regional connection, such as 
Mary Cassatt and Frank Lloyd Wright.
    Both the Picturing America Web site and the teachers' 
resource book have been described by our staff as ``visually 
and logically organized, allowing quick access to background 
information, activities and meaningful questions.''
    In the coming year, we hope to promote the Picturing 
America program beyond our school. Our students' parents will 
be able to view a month-long display of the posters in our 
school district's administrative offices.
    We also plan, as an outreach to our community this 
November, to invite veterans who are honored at an annual 
celebration at our school to visit the Picturing America 
exhibit and speak with students who will volunteer as experts 
about the images on display.
    Valuable as the Picturing America posters are to teaching 
our curriculum, however, perhaps their greatest worth is their 
limitless potential to teach us all--students, staff and 
parents--about ourselves. Yes, the posters may be checked out 
of the library and used to broaden students' knowledge of a 
particular place and time. But even when they are displayed on 
an easel, for no reason other than their power as works of art, 
they change our lives.
    An industrial arts teacher, looking at the desolation of 
Edward Hopper's ``House by the Railroad,'' asked me, ``Do you 
know this place?'' A lanky 14-year-old 8th-grade boy does a 
double-take when he walks past the photo of Frank Lloyd 
Wright's inventive masterpiece, ``Fallingwater.'' He asks, 
``How do you do that?''
    Last week I pulled out the photo of the ``Selma-to-
Montgomery March for Voting Rights in 1965,'' which Dr. Cole 
has brought with him today, for a friend teaching a novel set 
during the civil rights movement. I looked at that storm cloud, 
real and metaphorical, printed the accompanying description 
from the Web site, and read about those who ``face human and 
natural obstacles that stand in the way of heroic action.''
    Before I carried the poster up the hall, I was compelled to 
ask of myself, as my colleague did, ``Do you know this 
place?'', and to ask of myself, as my student did, ``How do you 
do that?'' And finally, these many years after the march to 
Montgomery, I was compelled to ask of myself, ``Are you someone 
who would walk with them?''
    Norman Cousins said, ``A library should be the delivery 
room for the birth of ideas, a place where history comes to 
life.'' The Picturing America grant makes it possible for 
history to come to life at Shaler Area Intermediate School, in 
our classrooms and in our library, and for its lessons to come 
to life in our hearts.
    Thank you.
    [The statement of Ms. Watkins follows:]

     Prepared Statement of Katrine Watkins, Librarian, Shaler Area 
                          Intermediate School

    Nine hundred eighth and ninth graders attend Shaler Area 
Intermediate School in Glenshaw, Pennsylvania, a community bordering on 
Pittsburgh. On a cold and snowy day this past January, we unpacked the 
Picturing America posters, oohed and aahed, and made John J. Audubon's 
American Flamingo the unofficial mascot of our school library. Since 
then, the Picturing America grant from the National Endowment for the 
Humanities has truly enriched our lives.
    The Picturing America posters dovetail perfectly with the scope and 
sequence of our district's Social Studies curriculum. In our American 
Cultures courses, eighthgraders study the Colonial Period through the 
Civil war; ninthgraders learn about the Westward Movement through the 
Cold War and take a one--term history course on the Sixties through the 
present day. This semester we have used the poster images in research 
projects on topics such as the Industrial Revolution, Pennsylvania Folk 
Art, and the Jazz Age, as well as for a display in our library during 
February for Black History Month.
    Art teachers have also used the Picturing America posters to 
highlight the American art in our district curriculum, especially those 
artists with a regional connection, such as Mary Cassatt and Frank 
Lloyd Wright. In addition, they plan to use the posters to supplement 
the teaching of various media, such as acrylic and oil painting, 
collage, pottery and sculpture, and stained glass. Several of the 
posters, such as Copley's Paul Revere and Lange's Migrant Mother, may 
be used to complement lessons on portraiture.
    Both the Picturing America web site and the teachers resource book 
have been described by our staff as ``visually and logically organized, 
allowing quick access to background information, activities, and 
meaningful questions.'' As the school librarian, I frequently have used 
both supplemental resources in making crosscurricular connections as I 
plan lessons with my colleagues.
    In the coming year, we hope to promote the Picturing America 
program beyond our school. Our students' parents will be able to view a 
monthlong display of the posters in our school district's 
administrative offices. We also plan, as an outreach to our community 
this November, to invite veterans who are honored at an annual 
celebration at our school to visit the Picturing America exhibit and 
speak with students who will volunteer as ``experts'' about the images 
on display.
    Valuable as the Picturing America posters are to teaching our 
curriculum, however, perhaps their greatest worth is their limitless 
potential to teach us allstudents, staff and parents--about ourselves. 
Yes, the posters may be checked out of the library and used to broaden 
students' knowledge of a particular place and time, but even when they 
are displayed on an easel, for no reason other than their power as 
works of art, they change our lives.
    An Industrial Arts teacher, looking at the desolation of Edward 
Hopper's ``House by the Railroad,'' asks me, ``Don't you know this 
place?''
    A lanky fourteenyearold eighthgrade boy does a doubletake when he 
walks past the photo of Frank Lloyd Wright's inventive 
``Fallingwater.'' He asks, ``How do you do that?''
    Last week I pulled out the poster of Karales' ``SelmatoMontgomery 
March for Voting Rights in 1965'' for a friend teaching a novel set 
during the Civil Rights movement. I looked at that storm cloud, real 
and metaphorical, printed the accompanying description from the 
Picturing America website, and read about those who ``face human and 
natural obstacles that stand in the way of heroic action.''
    Before I carried the poster up the hall, I was compelled to ask of 
myself, as my colleague did, ``Don't you know this place?'' And to ask 
of myself, as my student did, ``How do you do that?'' And finally, 
these many years after the march to Montgomery, I was compelled to ask 
of myself, ``Are you someone who would walk with them?''
    Norman Cousins said, ``A library should be the delivery room for 
the birth of ideas a place where history comes to life.'' The Picturing 
America grant makes it possible for history to come to life at Shaler 
Area Intermediate School, in our classrooms and in our library, and for 
its lessons to come to life in our hearts.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Captain Kelly?

STATEMENT OF CPT RYAN KELLY, U.S. ARMY, RETIRED, PARTICIPANT IN 
   OPERATION HOMECOMING, A PROJECT SUPPORTED BY THE NATIONAL 
                     ENDOWMENT FOR THE ARTS

    Captain Kelly. Good morning. And thank you, Madam 
Chairwoman and staff, for having me here today. It is my 
profound honor.
    I first became involved with the National Endowment for the 
Arts through a program called Operation Homecoming. The NEA 
initiative brought distinguished writers, including Tobias 
Wolff, Tom Clancy, Jeff Shaara, Bobbie Ann Mason, and Mark 
Bowden, to conduct writing workshops at 25 military 
installations from April 2004 to July 2005.
    It also offered an open call for writing submissions to 
troops who had served since 9/11 and for their families. And 
that call resulted in more than 10,000 pages of submissions to 
the NEA.
    I first heard of the project when I was serving as a 
company commander and Black Hawk pilot in Iraq. I was stationed 
up by Tikrit. And, as you can imagine, in Iraq, the days are 
incredibly long, the weather unbearably hot and the missions 
unrelenting and oftentimes unforgiving. There is an 
undercurrent of fear and tension that runs through every day in 
Iraq, coursing though the air like an invisible stream, 
chilling every decision, every act, and every thought.
    So you can imagine my reaction when my soldiers came to me 
and said, we have heard about Operation Homecoming; what do you 
think? And, frankly, I didn't know what to tell them, because 
it had never been done before. I didn't know what the arts had 
to do with the military.
    But after participating in the workshops and taking part in 
Operation Homecoming, something remarkable and wonderful 
happened to them. They let down their guard, dropped their 
preconceived notions, and started writing.
    And I did, too. I used to sit in my office late at night 
and pound out letters home. The ability to share my experiences 
with my family kept me sane. Many of the soldiers kept 
journals, wrote poems, composed stories or essays. What the NEA 
has done with Operation Homecoming is to record those writings, 
unvarnished, unfettered, uncensored by distance and the 
reflection of time.
    This is truly a historical initiative. The NEA's Operation 
Homecoming informs into the American consciousness the 
individual experience of war that has never been done before.
    A letter from a soldier comes home, and it arrives to the 
family members, and it is passed from hand to hand and saved in 
an album or tied with a ribbon and put in a shoebox or saved in 
the family Bible. It is saved because there is a truth--a 
painful, tearful, joyful truth--in it, and that truth makes the 
writing more than a living record of separation and sacrifice; 
it elevates it to art.
    The NEA has brought the voices of the soldiers and their 
experiences and their families into the living rooms of 
America. The NEA has allowed us, as a people, as a nation, to 
understand, or at least come closer to understanding, what war 
is and what it is not.
    This project has shown us the unimaginable sacrifices of 
war and its impact, not only on families and soldiers, but on 
communities, on states and our nation. It has illuminated the 
humor and insanity of the war, but, above all, the NEA has 
revealed the humanity of the people in it. And this is its most 
powerful revelation.
    Personally, the project gave me and still gives me a sense, 
as a soldier, as a writer, as a man and as an American, that 
what I was doing mattered; that, regardless of politics or 
feelings about the war, people back home cared about me and 
about my soldiers. It reinforced the message that America 
wanted to hear from us, hear our voices, share our experiences 
and remember them. For what is sacrifice worth if it is 
forgotten or ignored?
    Throughout history, soldiers have written about their 
experiences in war and combat, and some of the world's greatest 
works of fiction have been told by veterans, from Cervantes to 
Hemmingway to Heller. If the quality of work in Operation 
Homecoming is any indication, there will be a whole new crop of 
writers to emerge directly because of the NEA.
    I urge you to continue your support of the National 
Endowment for the Arts. It is imperative that programs such as 
Operation Homecoming survive and flourish because a great 
nation does deserve great art. And the pursuit of that art, 
ma'am, is noble and it is right and it is just. It is not only 
who we are, but it is who we strive to become.
    Thank you.
    [The statement of Captain Kelly follows:]

        Prepared Statement of CPT Ryan Kelly, U.S. Army, Retired

    Madame Chairwoman and distinguished members of the Subcommittee:
    My name is Ryan Kelly, and I come before you today to speak in 
support of the National Endowment for the Arts. I first became involved 
with the N.E.A. through its program called Operation Homecoming.
    The N.E.A. initiative Operation Homecoming brought distinguished 
writers--including Tobias Wolff, Tom Clancy, Jeff Shaara, Marilyn 
Nelson, Bobbie Ann Mason, and Mark Bowden--to conduct writing workshops 
at 25 domestic and overseas military installations from April 2004 
through July 2005. Operation Homecoming also offered an open call for 
writing submissions to troops who had served since 9/11, along with 
their spouses and families. That call resulted in more than 10,000 
pages of submissions.
    I first heard of Operation Homecoming while I was serving as a 
Company Commander and Black Hawk pilot in Iraq in 2005. I was stationed 
with the 1-150th General Support Aviation Battalion near Tikrit, Iraq. 
In Iraq, the days are incredibly long, the weather unbearably hot and 
the missions unrelenting and often, unforgiving. There is an 
undercurrent of fear and tension that runs through every day in Iraq, 
coursing though the air like an invisible stream, chilling every 
decision, every act, every thought.
    Soldiers do many things to while away the time when they are not 
working. I used to sit in my office late at night and pound out letters 
home to my wife Judy, and my mother Lynn. Writing helped me shed the 
fear of death, the fear of making the wrong decision, of getting my men 
and women killed, of killing someone else, of getting shot down, or 
blown up, the fear of ending up in one of the black-rubber body bags we 
carried in the rear of the helicopters.
    Many of my soldiers kept journals, wrote poems, composed stories or 
essays. Some kept them private, others made them public. But the work 
they created had one commonality: it captured the essence of war and 
more importantly, the experiences of the people fighting it--in Iraq 
and at home. The work generated by this anthology spans the gamut. In 
my own letters, I wrote about everyday life in Iraq and hero missions:
    * * * And they are the worst kind. It's the body bag in the back 
that makes the flight hard. No jovial banter among the crew. No jokes 
of home. No wisecracks about the origin of the meat served at the chow 
hall, just the noise of the flight--the scream of the engines, the whir 
of the blades clawing at the air, the voice crackling over the radio 
and the echo of your own thoughts about the boy in the bag in the back 
* * * if it weren't for the army uniforms and the constant noise of 
helicopters taking off and landing, and the Russian 747-like jets 
screaming overhead every hour of the day, and the F-16s screeching 
around looking for something to kill, and the rockets exploding, and 
the controlled blasts shaking the windows and the `thump, thump, thump' 
sound of the Apache gun ships shooting their 30mm guns in the middle of 
the night, and the heat and the cold, and the hero missions and the 
leaking body bags and the stress, and the soldiers fraught with 
personal problems--child custody battles fought from 3000 miles away, 
surgeries on ovaries, hearts, breasts, brains, cancers, transplants, 
divorces, Dear John letters, births, deaths, miscarriages and miss-
marriages--and the scorpions and the spiders who hide under the toilet 
seats, and the freakish bee-sized flies humming around like miniature 
blimps, and the worst: the constant pang of home, the longing for 
family, the knowledge that life is rolling past you like an unstoppable 
freight train, an inevitable force, reinforcing the desire for 
something familiar, the longing for something beautiful, for something 
safe, to be somewhere safe, with love and laughter and poetry and cold 
lemonade and clean sheets, if it weren't for all that, Iraq would be 
just like home. Almost.
    Peter Madsen wrote about the struggles at home. His wife, 
Specialist Juliet C. Madsen, was an Army Medic stationed in Iraq. After 
she deployed to war, he was left to care for their three children. The 
following is an excerpt of his letter.
    I am a single father of three, a sometimes retail and distribution 
manager, and a husband. When I first thought about my wife going over 
there, in the desert, I had to smile; even she will admit that she 
looks a little funny with all her gear on. Juliet is tiny and childlike 
buried beneath a mound of fatigues and body armor. Blonde wisps of hair 
escape from under her Kevlar helmet. I could never have imagined this 
very attractive, blonde waif of a girl going to war, but there she is * 
* * I have learned what our soldiers' wives have lived for generations: 
hope and grief and perseverance. I find humor with my children every 
day. When you are seven, two wrongs really do make a right. Seventh-
graders can be cruel to one another, but fathers can make it better. 
Why would you wash the minivan with a steel-wool brush? I don't know, 
but her heart was in the right place. Each morning when I wake up, I 
kiss my children and hold them close. We talk about Mom and the war, 
but we leave CNN off. We go to bed each night and all say one prayer: 
``God, please bring our mommy home safe.'' She is always in our hearts 
and in our thoughts and we can hardly wait to have her home with us. I 
say an extra prayer, too, just for me: `Thank you, God, for giving me 
this time with my children.' I don't know where our story will end. I 
just know that we make it through each day with love and laughter, and 
that is good enough for now.
    What the National Endowment for the Arts did with Operation 
Homecoming was record the experience of war. Unvarnished. Unfettered. 
Uncensored by distance and the reflection of time.
    This is truly a historical initiative. The N.E.A.'s Operation 
Homecoming informs into the American consciousness the individual 
experience of war in a way that has never been done before. When a 
letter from a soldier at war arrives in the mailbox, it is passed from 
hand to hand, from one family member to the next, read by friends and 
associates and co-workers, and ultimately, saved in an album, put in a 
shoe box or placed in the family Bible. It is saved because there is a 
truth in it--a painful, tearful, joyful, soulful, heart-breaking, 
humorous, truth. And that truth makes the writing more than a living 
record of separation and sacrifice of honor and death. It elevates the 
writing to art.
    Operation Homecoming brings the voices and experiences of soldiers 
and their families into the living rooms and dining rooms of ordinary 
Americans; it serves up the soldiers' experiences at the family dinner 
table and in the classroom. Operation Homecoming allows us, as a 
people, as a nation, to understand--or at least come closer to 
understanding--what war is and what it is not. It lets us see war's 
terrible costs, paid in bone and blood and tears. It shows us the 
unimaginable sacrifices of war and its impact, not only on our families 
and our soldiers, but on our communities, our states and our nation. It 
illuminates the humor and insanity of war. But above all, it reveals 
the humanity of the people fighting in it. And this is its most 
powerful revelation.
    I never heard the boom-CRUNCH, only imagined it later. There was 
strong braking, followed by a great deal of shouting * * * somebody was 
wailing in Arabic, hypnotically, repetitiously. He was an older man 
with a silver beard, a monumental, red-veined nose, and a big, thick 
wool overcoat. He was hopping like a dervish, bowing rapidly from the 
waist and throwing his arms to the sky, then to his knees, over and 
over again in a kind of elaborate dance of grief. I walked to the car 
with an Air Force sergeant and moved the older man aside as gently as 
possible. It's hard to describe what we found in the car. It had been a 
young man, only moments earlier that night. I put my arm around him and 
guided the old man to the road.
    `Why can't he shut up?'
    `You ever lose a kid?' This is a pointless question to ask a 
soldier who's practically a kid himself.
    They had been on their way back to Sinjar, just a few miles away. 
The younger man had been taking his father back from shopping. They 
were minutes from home. We didn't find any weapons in the car--either 
piece of it. There was no propaganda, nor were there false IDs. If we 
had stopped these people at a checkpoint, we would have thanked them 
and let them go on. The young man had been a student. Engineering. With 
honors. Pride of the family. What we like to think of as Iraq's future. 
Finally, I had to ask: ``What does he keep saying?''
    The terp looked at me, disgusted, resigned, or maybe just plain 
tired. ``He says to kill him now''--excerpted from Sergeant Jack Lewis' 
Operation Homecoming narrative.
    Personally, Operation Homecoming gave--and still gives--me a sense 
as a soldier, as a writer, as a man, and as an American, that what I 
did mattered. That, regardless of politics or feelings about the war, 
people back home cared about me, and about my soldiers. It reinforced 
the message that America wanted to hear from us, hear our voices, share 
our experiences and remember them.
    For what is the value sacrifice if it is forgotten or ignored.
    Throughout history, soldiers have written about their experiences 
in war and combat. Some of the world's greatest works of fiction have 
been created by veterans. From Miguel de Cervantes to Leo Tolstoy, from 
Ambrose Bierce to Ernest Hemmingway, from Joseph Heller to Tobias Wolf. 
Operation Homecoming includes nearly 100 personal letters, private 
journals, poems, stories, and memoirs of service and sacrifice on the 
front lines and at home. A whole new crop of writers will emerge from 
this war.
    I urge you to continue and increase your funding of the National 
Endowment for the Arts. It is imperative that programs such as 
Operation Homecoming survive and flourish because `a great nation 
deserves great art'.
    I leave you with a poem from the Operation Homecoming by Captain 
Michael Lang, titled Reflections.
                    In the desert, there is sand
                        and space, filled up by wind

                    and heat. It's black at night,
                        lightless, aside from the stars.

                    When the storms came one night,
                        I smoked out in the sand.

                    And glowed within the world
                        the lighting revealed.

    Thank you for your time and attention.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Captain.
    Mr. Cole. Madam Chairman? I have to leave, with your 
permission. But may I ask Tom Lindsay, who is the deputy 
chairman, to come to the table?
    Chairwoman McCarthy. Absolutely.
    Mr. Cole. Thank you very much for this opportunity. I 
appreciate it greatly.
    Chairwoman McCarthy. And thank you for taking the time to 
educate all of us.
    Mr. Cole. I am sorry I have to leave, but thank you.
    Chairwoman McCarthy. And I thank everybody for their 
testimony.
    I think with the education through all of you--and believe 
it or not, this will be on C-SPAN, so people, you know, at 
different times of the day and night will see this. Because, 
unfortunately, we see, especially with the economy that we have 
today, that a lot of our schools that have arts classes, have 
humanities programs, we are going to start seeing cuts, because 
those are usually the first place. So, with the work that you 
are all doing, we will still encourage and be in our 
communities. And I think that is important.
    I guess what I am going to first do, because I am hoping 
Mr. Platts will be back--he is going to run, vote, and be 
back--but as to authorization, we don't get to hand out the 
money. However, we do know everyone wants as much funding as 
everyone can provide.
    Support for the arts and the humanities is critical for our 
nation and our culture. The programs you have spoken about 
today clearly have impact on the lives of our citizens across 
the country on a daily basis.
    Beyond financing these agencies, what role do you think 
that Congress is playing in supporting both Endowments and 
their missions?
    And I will throw that out to you, because it is important, 
as we go through our committees--it goes from the subcommittee, 
it goes to the full committee--obviously, you know, we will be 
looking to see hopefully for reauthorization.
    But what other kind of help do you possibly need to make 
sure that the program is spread throughout the country?
    Mr. Lindsay. Well, I would say, more of the same. We have 
been very grateful for the support that we have received during 
this chairman's tenure. We think that it is a just amount. We 
think that we have used it with discretion and with good 
judgment. The NEH is known for only the best of the best 
projects.
    And I would say, on behalf of the chairman, on behalf of 
the entire agency, we are grateful for the support that we have 
received, and look forward to continued support. And I think 
the chairman's attitude would be expressed as, if it is not 
broke, don't fix it. And we don't think it is broke.
    Chairwoman McCarthy. Thank you.
    Anyone else?
    Mr. Gioia. Madam Chairman? You have asked a philosophical 
question, and I would like to give you a philosophical answer, 
which is, our agencies are actually quite small in the context 
of the American economy, in the context of American culture. 
What we provide is not only funding, but it is a kind of 
symbolic leadership. The strength of our symbolic leadership is 
that our agencies are extensions of the U.S. government, which, 
in a sense, try to portray the best values of the U.S. 
government.
    So I would say that what we would look to from the 
authorization process--and I think it is not inconsistent with 
what my colleague from the Humanities just said--is the 
creation and support of a consensus about the importance of 
these things, about the importance of arts in education, the 
importance of arts in communities. So that, as we go forward 
and we give what are really, actually, quite small grants, 
those grants maintain their catalytic ability, so that every 
dollar that we give generates seven, eight and sometimes as 
much as 12 additional dollars.
    What we look forward to is working together with you to 
portray and present this national consensus about the 
importance of these endeavors. And we thank you for your 
support.
    Chairwoman McCarthy. Thank you.
    Captain Kelly, as you described the program and how it 
helped your unit and the soldiers that you worked with, what do 
you think should be the next phase of Operation Homecoming?
    Captain Kelly. Thank you for the question.
    I think the next phase of Operation Homecoming should be 
writings from soldiers who were injured in the war. And I 
understand that the NEA has already taken up that project.
    But I do feel passionately about this particular project in 
the NEA. And the reason is because I have seen what it can do. 
I have seen that the arts have penetrated into a community that 
they hadn't before, and that is the U.S. military. And I have 
seen the transformation of soldiers who were dubious at best 
about the impact of arts in their lives transform and now 
become writers, and some want to become painters, et cetera.
    So, to answer your question, whatever the decision is that 
the NEA makes, I think that this is a project worth continuing.
    Chairwoman McCarthy. Thank you.
    Ms. Watkins, did the NEH encourage you to incorporate the 
community in the Picturing America program? What sort of 
activities outside of the standard classroom do you use the 40 
images of Picturing America? And what other community members 
are impacted by that?
    Ms. Watkins. Yes, there is encouragement to use it beyond 
the school.
    We have a program every November for veterans that I 
addressed in my comments. And we always do something arts-
related for them on a day in November. So we plan to have an 
arts show using these posters and have our students take on an 
image and take charge of that image and explain to the veterans 
who walk through the show what the image is about, how it 
relates to their American Culture courses and what their 
interest is in it.
    Most of the veterans that come to our school are World War 
II veterans, very elderly men and women. And they really look 
forward to seeing one another and to seeing our students and 
talking to our students about their experiences. And I think 
that they would really appreciate hearing student involvement 
with American history and would feel good about the new 
generation, I think.
    Chairwoman McCarthy. One of the things that we have found, 
especially with our World War II veterans, obviously they are 
getting a lot older, and we had started a program called Oral 
History. And we have gone to our World War II veterans, and we 
didn't how difficult it was to get them to talk about their 
history. We actually started asking the grandchildren to ask 
grandpa to talk about World War II, because we should have that 
history.
    My particular district, we actually started looking into 
those that were prisoners of war. And when we presented them 
for the archives, they did not have any of those stories.
    So, Captain Kelly, what you are doing, you know, hopefully 
we can reach out to our younger members so their history is 
recorded, whether it is through drawings, writings. Because I 
think all our military, for future generations, need to know 
the history of what our people go through to defend this 
country, and I think it is important.
    So I thank both of you for your work.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair. I am getting my 
exercise here today, running back and forth.
    Jeanne, I would like to start with you. And with your 
wealth of knowledge for Pennsylvania, if we did not continue 
NEH and NEA funding at the level we are at and there was a 
reduction or even, with inflation, not increases to keep up, 
what would it do to the efforts at the state and local level in 
Pennsylvania if you didn't have that access to federal funds?
    Ms. Schmedlen. Actually, I think it would be devastating. 
We are trying to get out to all 67 counties now with programs, 
so that those that are underserved can have opportunities.
    And with the money that we have now, I think we have been 
very frugal and very effective, and I think that we could even 
be equally as frugal but more effective if there was an 
increase. I am not asking for an increase; I am just telling 
you where that might go. [Laughter.]
    Mr. Platts. Your examples you gave, both in your oral 
testimony as well as your written, does highlight the ability 
to reach into a lot of these smaller communities. If I remember 
correctly, the 60 people was Cameron County.
    Ms. Schmedlen. Yes.
    Mr. Platts. And for those not from Pennsylvania, to get 60 
people out at an art-related event in Cameron County is quite a 
turnout.
    Ms. Schmedlen. It was. It was amazing.
    And, you know, with the new technology, we are even 
reaching more communities. I mean, with Webcasts and with PCN, 
we are reaching many, many more folks than we have in the past. 
And so we welcome a marriage between, you know, the right brain 
and the left brain, as well, here.
    Mr. Platts. What happens at the state level with the 
schools? You know, obviously there are some national programs, 
NEH and NEA partnering with schools and teachers. You know, 
does the Pennsylvania Humanities Council play a role in that, 
or complement it, or doing some things in addition to it?
    Ms. Schmedlen. Both the state arts agencies have strong 
education programs. The Artists in Schools Program, the 
Pennsylvania Council on the Arts, brings artists into work with 
children in every community, including rural communities.
    Just recently, we had a Poetry Out Loud competition in 
Pennsylvania, and Francesca Fiore, who was from West Chester, 
won the competition in Pennsylvania. And we spread that word 
far and wide through the Pennsylvania Council on the Arts. We 
had 7,000 young people that participated this year.
    But the best thing that happened was, just yesterday, we 
celebrated Arts in Education Day at the Capitol. We brought 700 
kids from 14 different schools in to perform in different areas 
of the Capitol. And many of those performances were carried by 
PCN.
    And Francesca came to the House floor, the House chamber, 
was introduced by the speaker of the House, and she performed 
her poem before a live audience of over 3 million subscribers 
to PCN. So, again, we were getting out.
    Anyway, that is an excellent program through the 
Pennsylvania Council on the Arts.
    Mr. Platts. Great.
    And, kind of, a follow up on that, Chairman Gioia, the 
outreach to the schools--and, in your testimony, you listed two 
big challenges, one international and the other in our schools, 
and the diminished state of arts education in our nation's 
schools.
    And I think in our previous conversations--and I know with 
Dr. Cole I had talked about how blessed our family considers, 
in the public schools that we are in in York, that both of my 
children, 3rd grade and 5th grade, have great exposure. In 
fact, the school art show was yesterday after school. 
Unfortunately we were here voting until about 10:00 last night, 
so I wasn't there. But my office, my sanctuary here, is kind of 
a private art gallery from my children because of all the art 
they do in their school setting, as well as at home.
    One of the challenges is getting school boards to 
understand that, you know, cutting art education may save a few 
dollars in the budget, but it will have a much greater negative 
impact on the overall education of the students in that 
schools.
    Has there been any effort to outreach to the National 
School Boards Association, to make presentations?
    And what I am envisioning, how passionate Mr. Burns, of 
when they have their national conference here, to see if they 
would allow the NEH and NEA to maybe make a presentation as 
part of their program during the national conference each year, 
to really help get across to school board members who are 
struggling with how to make ends meet but to understand that 
this investment is up there with the other curriculum 
investments as well.
    Mr. Gioia. Yes, there has been. The NEA and myself are 
constantly traveling, constantly giving talks at national, 
regional, state and local meetings. We have hundreds and 
hundreds of these events.
    The problem, really, is not their receptivity. They are 
very interested in participating in all of the programs we 
have. You could see that simply by the enormous level of 
participation at Picturing America or the fact that now the 
majority of high-school students in the United States are now 
using our Shakespeare material. I mean, this is unprecedented 
reach.
    The problem, really, is a broader thing. When I talk about 
a national consensus, I talk about public opinion, these are 
not, to me, empty issues. There was a breakdown during the 
culture wars of the relationship between the state, federal and 
local governments and education and the arts. The arts suffered 
from this in some ways, but who really suffered are the 60 
million American schoolkids who have had their arts programs 
systematically removed from their schools.
    I was a poor kid in a poor neighborhood, but it never 
seemed to me that it was possible that there could be a school 
that didn't have a band, didn't have some kind of theater 
program, some kind of choir, some kind of arts programming. 
This is now the rule in American middle schools and high 
schools. A child's access to arts education has become a 
function of his or her parents' income.
    We are trying to address this with our limited means, and 
the NEA is doing it in three ways: by taking arts and 
introducing them into other subjects, like English, history, 
civics, et cetera, et cetera, as appropriate; secondly, by 
providing high-quality after-school programs and summer 
programs, which are limited basically by our funding but can 
play decisive roles in a child's life; and thirdly, by trying 
to get kids actually into a museum, a play, a concert. 
Somewhere around 70 percent of high-school seniors have never 
seen a spoken, professional play. Consequently, it is not 
surprising they find Shakespeare challenging.
    So we are trying to take leadership in this, but it is a 
huge issue because it is a large nation. My sense, though, is 
that the educational community is passionately interested in 
finding a solution to this, but it feels as if it is beyond 
their control.
    Mr. Platts. Well, and I think that passion is there in the 
education community with teachers and administrators. I think 
the greater challenge is maybe, in Pennsylvania, with 501 
schools districts, the elected school board members to 
understand the benefit. Because the programs that you are doing 
are outstanding, but they can't replace the school having its 
own art program.
    And that is the suggestion of trying to, kind of, inspire 
or capture--and, Mr. Chairman, not that you are not inspiring 
or captivating in your presentations, but that average school 
board member having a Ken Burns make a presentation to them or 
others in the art community that have that national recognition 
may capture a few more school board members to say, ``Hey, we 
have to tighten the belt, but in the long term it is going to 
hurt us, not help us, if we cut art education.''
    Mr. Lindsay. Yes, I just wanted to add to that--you raised 
the question earlier about the effect of a cut in funding. The 
chairman mentioned during his testimony the We the People 
program, of which Picturing America is the capstone. And the We 
the People program is aimed at enhancing the teaching and study 
of American history and culture, and not simply as knowledge 
for its own sake, as good as that is, but toward the end of 
producing better-informed citizens.
    And if you go back to the enabling legislation for the NEH, 
its mandate declares, democracy demands wisdom, wisdom in its 
people. And survey after survey for the last 20 years--and I 
don't have to tell you folks; you know this--shows that young 
people today and not-so-young people today, native-born as well 
as newly arrived immigrants, do not understand the principles 
that define American democracy. And it has been said that we 
can't defend what we can't define.
    So my worry would be, if funding were to be cut, that this 
program, We the People, which really represents a renewal of 
our fundamental commitment to provide a better-informed 
citizenry, would have a destructive impact on what is already a 
dangerous situation as regards citizen knowledge.
    Mr. Platts. Yes, and that engaged citizen is critical in 
the work you are doing and from a democratic standpoint. And 
then I know several of you mentioned in your testimony 
creativity and innovation, which in today's marketplace is 
essential to our nation's ability to compete. And, you know, it 
may be innovation and creativity in engineering, but, kind of, 
building that foundation of innovation and creativity begins 
very early on.
    With my 9-year-old, the hardest thing is, at the end of the 
day--and they are always trying to push the bedtime back 
further and further. And my 9-year-old knows that he will get 
extra time when I walk into his room and say, ``Lights out,'' 
but he is sitting there sketching in bed, with his sketchpad, 
or writing in the journal, you know, that, ``Yes, you get a few 
more minutes,'' because I don't want to cut him off from that 
creativity that, you know, he is showing. And, long term, in 
the economic community, challenges of the world economy today, 
that is going to be critical.
    So, Madam Chair, if I could have the indulgence of one more 
question with Captain Kelly.
    I apologize for missing your testimony, getting the vote 
in. One, I want to first thank you for your service, as one who 
has not worn the uniform but grew up with an amazing mom and 
dad who instilled in five of us kids why we are so blessed, it 
is because of those who do and have, to you and all who wear 
the uniform in all of our military families.
    And that is my question on the Operation Homecoming, is, 
any insights from your family's perspective of what this 
program has meant? Because they are kind of the unsung heroes 
on the homefront that are holding down the fort, whether it be 
spouses and children or parents, siblings. Your perspective on 
how this has helped your family maybe deal with the challenge 
of your deployment?
    Captain Kelly. It helped them immensely, sir. And I say 
that because it gave them a voice, it gave them an opportunity 
to write about what they were feeling and what they were going 
through.
    The beauty of the program is that it not only captures 
stories from soldiers but also from the soldiers' families. And 
that is another dimension that the NEA has brought to the 
military. For a long time, the focus of the military, frankly, 
has been on the soldier. But, as you said, the unsung heroes of 
the military is the military family.
    And to include them in the project has been amazing and 
transforming. I have seen families of my friends who were 
writing because of this project become more healthy because of 
it. And so, that has been my personal experience with it.
    Mr. Platts. Well, you know, I returned a few weeks back 
from my sixth trip to Iraq visiting troops. And each time I 
have the chance to, whether it is Afghanistan or Iraq or 
elsewhere, with troops in Iraq, at any length, with soldiers, 
Marines, sailors, offer to touch base with their family.
    And this trip, we were at the 101st Airborne in Yusufiyah, 
just south of Baghdad. And a young, 32-year-old Army captain, 
Michael Starz, from Pittsburgh, Pennsylvania--and when I got 
back, I touched base, talked to his mom and I talked to his 
wife, holding down the fort with a 4-year-old, a 3-year-old and 
a 10-month-old. And the conversation with her was truly 
inspiring, that unsung service at home that she and her 
children were making.
    And so, empowering families through this project is one 
more example of the great outreach that, you know, these 
programs are achieving, and that blessing to our nation. So 
thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. You are quite welcome.
    I just want to ask one follow-up question to the mayor.
    With the program, through the Mayors' Institute, have you 
been talking to other mayors in Nassau County? Because Nassau 
County is obviously one of the oldest suburban areas in the 
country; we were one of the first. But with that being said, 
also your constituents, with the program that you are going to 
be instituting, what is going to be the impact on your 
constituents through what you have learned?
    Mr. Glacken. First of all, the plan process is going to 
begin with a charrette, which is going to bring together many, 
many different stakeholders within the community who are 
affected in one way or another by the revitalization of the 
North Main Street corridor. And this includes not only 
residents in both northwest and northeast Freeport, but also 
clergy, local businesses, local civic organizations, the 
chamber of commerce, many of the service organizations that 
provide services in one form or another to the community.
    It is going to be a very, very inclusive process. And it is 
intended to build a consensus, so that the final plan that 
people come up with is something that the entire community will 
support.
    And once it is in place, then we are in a position to not 
only seek funding from the federal government, but there will 
also be a great deal of interest on the part of the private 
sector that will come in and say, ``They have a comprehensive 
plan in place. This makes a great deal of sense. It has 
widespread community support, and it has the local government 
backing it to the hills. So that creates a very healthy climate 
for investment and revitalization.''
    So one of the biggest results of this whole planning 
process and design process is that it brings the entire 
community together. And it was sparked by this program. And I 
can't say enough in praise of it; it is really a wonderful 
program.
    And incidentally, you can't just sign up for it. I mean, 
you sign up for it, but you wait to be called. So, it is sort 
of by invitation. I had expressed an interest in this program 
through the U.S. Conference of Mayors. And one of the founders 
of the program, Mayor Riley of Charleston, South Carolina, who 
has done an outstanding job revitalizing Charleston, that I 
would very much be interested in having the opportunity someday 
to participate. And it finally happened in December of 2006.
    So I brought a certain level of enthusiasm to it, to the 
conference, to begin with, and I am very glad that I was able 
to participate. It was a very positive experience, and it is 
now leading to some very concrete results that are going to 
benefit our entire community.
    Chairwoman McCarthy. Thank you, Mayor.
    That concludes--because we do have another vote going on, 
so we are not going to torture you all to keep staying here 
while we go vote, because we don't know how long we are going 
to be down on the floor.
    But I want to thank each and every one of you. I think it 
is important that, you know, people, the American people, 
understand, you know, why it is so important and how NEA and 
NEH have actually brought the arts and the humanities to our 
communities and to our children.
    Captain Kelly, I thank you for the work that you have done 
with our military. Our military have gone under great 
constraints over the last several years. And, certainly, I 
think with all the programs that are put together, it does show 
what we as Americans are, what our communities are, and where 
we came from and we are going to go. So I thank you for that.
    I want to thank each of the witnesses for sharing with us 
some of the wonderful programs that NEA and NEH implement. I 
think that it is clear that the programs discussed here today 
add to education and the experience of the arts and humanities.
    By the way, just to let everybody know, I have a learning 
disability, so sometimes reading out loud is extremely 
difficult for me.
    We should remember that the arts and the humanities serve a 
role in our lives in both good and challenging times. The human 
experience and its expression are critical to the growth and 
advancement of our nation. The NEA and NEH reflect the 
importance of the arts and the humanities to the lives of every 
citizen of our country, and their programs mirror the diversity 
and creativity that is the strength of our nation.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the majority staff within the 
required time.
    Without objection, this hearing is adjourned. Thank you.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
